<html>
<title> - MODERNIZING ENVIRONMENTAL LAWS: CHALLENGES AND OPPORTUNITIES FOR EXPANDING INFRASTRUCTURE AND PROMOTING DEVELOPMENT AND MANUFACTURING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
   MODERNIZING ENVIRONMENTAL LAWS: CHALLENGES AND OPPORTUNITIES FOR 
  EXPANDING INFRASTRUCTURE AND PROMOTING DEVELOPMENT AND MANUFACTURING

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2017

                               __________

                            Serial No. 115-8
                            
                            
                            
                            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                           
                            


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                            _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-128                   WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, CaliforniaL RUIZ, 
MARKWAYNE MULLIN, Oklahoma               California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia


                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
TIM MURPHY, Pennsylvania             SCOTT H. PETERS, California
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
GREGG HARPER, Mississippi            DIANA DeGETTE, Colorado
PETE OLSON, Texas                    JERRY McNERNEY, California
BILL JOHNSON, Ohio                   TONY CARDENAS, California
BILL FLORES, Texas                   DEBBIE DINGELL, Michigan
RICHARD HUDSON, North Carolina       DORIS O. MATSUI, California
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
EARL L. ``BUDDY'' CARTER, Georgia
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    99
    Prepared statement...........................................   100

                               Witnesses

Jonathan F. Mitchell, Mayor, New Bedford, Massachusetts..........    10
    Prepared statement...........................................    13
Kevin Sunday, Director, Government Affairs, Pennsylvania Chamber 
  of Business and Industry.......................................    26
    Prepared statement...........................................    28
    Answers to submitted questions...............................   232
Melissa Mays, Founder, Water You Fighting For?...................    47
    Prepared statement...........................................    50
Emily Hammond, George Washington University Law School on behalf 
  of Center for Progressive Reform...............................    55
    Prepared statement...........................................    57
Thomas M. Sullivan, Vice President, Small Business Policy, U.S. 
  Chamber of Commerce............................................    64
    Prepared statement...........................................    66
    Answers to submitted questions...............................   235
Ross E. Eisenberg, Vice President, Energy Resources Policy, 
  National Association of Manufacturers..........................    73
    Prepared statement...........................................    76
    Answers to submitted questions...............................   241

                           Submitted Material

Statement of the Associated General Contractors of America, 
  submitted by Mr. McKinley......................................   128
Statement of labor groups in opposition to H.J.R. 59, submitted 
  by Mr. Green...................................................   133
Statement of American Forest and Paper Association and American 
  Wood Council, submitted by Mr. Carter..........................   137
Statement of the American Road and Transportation Builders 
  Association, submitted by Mr. Shimkus..........................   152
White paper entitled, ``EPA's New Source Review Program: Evidence 
  on Processing Time 2002 to 2014,'' February 2015, Resources for 
  the Future, submitted by Mr. Shimkus...........................   155
Statement of the Center for Progressive Reform, submitted by Mr. 
  Tonko..........................................................   174
Article entitled, ``The claim that American households have a 
  $15,000 regulatory burden,'' dated January 14, 2015, submitted 
  by Mr. Tonko...................................................   180
Report by the Congressional Research Service, submitted by Mr. 
  Tonko..........................................................   184
Article entitled, ``EPA's New Source Review Program: Time for 
  Reform?'', dated January 2017, Environmental Law Reporter, 
  submitted by Mr. Shimkus.......................................   216


   MODERNIZING ENVIRONMENTAL LAWS: CHALLENGES AND OPPORTUNITIES FOR 
  EXPANDING INFRASTRUCTURE AND PROMOTING DEVELOPMENT AND MANUFACTURING

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2017

                  House of Representatives,
                       Subcommittee on Environment,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Present: Representatives Shimkus, McKinley, Barton, Murphy, 
Olson, Johnson, Flores, Hudson, Walberg, Carter, Walden (ex 
officio), Tonko, Ruiz, Peters, Green, DeGette, McNerney, 
Dingell, Matsui, and Pallone (ex officio).
    Staff present: Wyatt Ellertson, Research Associate, Energy/
Environment; Adam Fromm, Director of Outreach and Coalitions; 
Giulia Giannangeli, Legislative Clerk, Digital Commerce and 
Consumer Protection/Environment; Tom Hassenboehler, Chief 
Counsel, Energy/Environment; Zach Hunter, Director of 
Communications; A.G. Johnston, Senior Policy Advisor/
Professional Staff, Energy/Environment; Katie McKeough, Press 
Assistant; Mary Neumayr, Senior Energy Counsel; Tina Richards, 
Counsel, Environment; Chris Sarley, Policy Coordinator, 
Environment; Dan Schneider, Press Secretary; Peter Spencer, 
Professional Staff Member, Energy; Hamlin Wade, Special 
Advisor, External Affairs; Luke Wallwork, Staff Assistant; Jeff 
Carroll, Minority Staff Director; Jacqueline Cohen, Minority 
Senior Counsel; Jean Fruci, Minority Energy and Environment 
Policy Advisor; Caitlin Haberman, Minority Professional Staff 
Member; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; Dan Miller, Minority Staff 
Assistant; Alexander Ratner, Minority Policy Analyst; Matt 
Schumacher, Minority Press Assistant; Andrew Souvall, Minority 
Director of Communications, Outreach and Member Services; and 
C.J. Young, Minority Press Secretary.
    Mr. Shimkus. Let me call the subcommittee to order.
    And before we start opening statements I want to welcome, 
and I will have my ranking member welcome Congressman Walberg 
and Congressman Carter, who are new to the Energy and Commerce 
Committee as a whole, and also new to the subcommittee.
    So, so welcome. Glad to have you.
    Mr. Tonko. Thank you, Mr. Chairman. On our side I would 
like to welcome Congresswoman Debbie Dingell at the end of this 
tier, and Representative Scott Peters and Representative Raul 
Ruiz.
    So we look forward to a very productive session with Energy 
and Commerce.
    Thank you, Mr. Chair.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you. And this is a kind of a new 
committee. It has got expanded jurisdiction over part of the 
stuff we are talking about today. And so and this is also a 
committee that helped push through the Toxic Chemical Reform 
bill which was a, I would argue, is one of the major pieces of 
legislation that got through in the last Congress.
    So, so we work well together. We fight when we need to 
fight, and that is the way the system works. So it is great, it 
is great to have you here.
    And I will recognize myself for 5 minutes for my opening 
statement.
    Welcome to the Environment Subcommittee's first hearing of 
the 115th Congress. The topic of the hearing today reflects 
what is going to be one of the themes of our legislative work 
this Congress, and that is to identify the best ways to 
modernize the statutes within our jurisdiction in ways that 
deliver effective environmental protections and remove 
unnecessary barriers to expand economic opportunity in 
communities and the nation.
    We will be returning to this topic a lot in the coming 
months. Today focuses on challenges to economic development 
under certain laws and policies administered by the 
Environmental Protection Agency. We will be taking testimony to 
help us to identify practical solutions and statutory updates 
that will accelerate the development of infrastructure and 
manufacturing.
    In a future hearing, we will look at similar challenges at 
the Department of Energy. In particular, we will be working to 
update and ensure more rapid implementation of our nation's 
nuclear waste management policy.
    As we know from extensive committee oversight, getting our 
nation's used fuel management program back on track will result 
in a path to reinvigorate the nuclear energy sector, save 
taxpayers billions of dollars in liability costs, and unlock 
tens of billions of dollars for construction and associated 
infrastructure projects.
    The benefits of good jobs in strong communities that result 
from this kind of economic activity can be difficult to measure 
fully, but that makes them no less real. And so, as we look at 
how to modernize environmental laws, we should always keep in 
mind the intangible good that comes from enabling people to 
have the economic wherewithal to live healthier and safer 
lives.
    These community-strengthening benefits of economic 
development are central to the goals of the EPA's Brownfields 
Program. This program incentivizes states, local governments, 
and private stakeholders to clean up underused or abandoned 
industrial and commercial properties, and to return them to 
beneficial use. There are more than 450,000 Brownfield sites in 
the United States. In many communities across the nation, 
Brownfields contribute to the blight that depresses property 
values, inhibits development, and contributes to economic 
stagnation.
    Cleaning up these sites and returning them to productive 
use is great for the economy because Brownfields grants can be 
directly leveraged into jobs, additional redevelopment funds, 
and to increase residential property values. So it offers the 
kind of a community boost we want from good environmental 
policies.
    While the Brownfields Program seems to be working, there is 
always room for improvement. So, we today welcome Mayor Jon 
Mitchell from New Bedford, Massachusetts. Mayor Mitchell has 
developed solar projects from contaminated sites, which is also 
something that is happening near my district in East St. Louis, 
Illinois. Turning contaminated sites into solar seemed like an 
excellent way to develop infrastructure while addressing 
blighted areas within our communities.
    In the implementation of our air laws, the states, 
localities, and private sector all face challenges in 
developing new infrastructure or manufacturing projects. As 
noted in past committee hearings, when companies seek to invest 
in large capital projects, they need realistic and predictable 
project timelines. This is necessary to plan, design, 
procurement, installation and operations. Yet, uncertainties in 
the process for obtaining air permits can lead to costly delays 
and decisions not to invest in these projects.
    EPA is required to make new source permit decisions one 
year after a completed application is filed. An analysis that 
looked at preconstruction permits for power plants and 
refineries, however, found that while permits in the late 1990s 
averaged around 160 days, from 2002 to 2014 it took an average 
of 480 days to issue a decision on a permit application.
    In other cases, we see EPA setting new air standards but 
failing for years to issue implementation regulations. EPA took 
nearly seven years to issue guidance on how to comply with its 
2008 ozone standards. It took more than three years to issue 
final implementation regulations for its 2012 particulate 
matter standards.
    The unnecessary delays for project developers and city and 
state planners just add up and result in the costly waste of 
time and project investments idling on the sidelines. We should 
be able to do better than this. In today's modern economy it 
makes no sense that we cannot have a more efficient permitting 
process, or more timely guidance from the regulatory agencies.
    Our witnesses today will provide local, state, and national 
perspectives that should help guide us as we consider common 
sense measures to expand economic opportunity by modernizing 
certain environmental statutes.
    And with that my time is almost out. And I yield back my 
time and recognize the ranking member of the subcommittee Mr. 
Tonko.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Welcome to the Environment Subcommittee's first hearing of 
the 115th Congress.
    The topic of the hearing today reflects what is going to be 
one of the themes of our legislative work this Congress. And 
that is to identify the best ways to modernize the statutes 
within our jurisdiction in ways that deliver effective, 
environmental protections and remove unnecessary barriers to 
expand economic opportunity in communities around the nation.
    We will be returning to this topic a lot in coming months. 
Today focuses on challenges to economic development under 
certain laws and policies administered by the Environmental 
Protection Agency. We will be taking testimony to help us to 
identify practical solutions and statutory updates that will 
accelerate the development of infrastructure and manufacturing.
    In a future hearing, we will be looking at similar 
challenges at the Department of Energy. In particular, we will 
be working to update and ensure more rapid implementation of 
our nation's nuclear waste management policy.
    As we know from extensive Committee oversight, getting our 
nation's used fuel management program back on track will result 
in a path to reinvigorate the nuclear energy sector, save 
taxpayers billions of dollars in liability costs, and unlock 
tens of billions of dollars for construction and associated 
infrastructure projects.
    The benefits of good jobs and strong communities that 
result from this kind of economic activity can be difficult to 
measure fully-but that makes them no less real.
    And so as we look at how to modernize environmental laws we 
should always keep in mind the intangible good that comes from 
enabling people to have the economic wherewithal to live 
healthier and safer lives.
    These community-strengthening benefits of economic 
development are central to the goals of the EPA's Brownfields 
program. This program incentivizes states, local governments, 
and private stakeholders to clean up under-used or abandoned 
industrial and commercial properties and to return them to 
beneficial use.
    There are more than 450,000 brownfields sites in the United 
States. In many communities across the nation, brownfields 
contribute to the blight that depresses property values, 
inhibits development, and contributes to economic stagnation.
    Cleaning up these sites and returning them to productive 
use is great for the economy because brownfields grants can be 
directly leveraged into jobs, additional redevelopment funds, 
and into increased residential property values so it offers the 
kind of community boost we want from good environmental 
policies.
    While the Brownfields Program seems to be working, there is 
always room for improvement so we today welcome Mayor Jon 
Mitchell from New Bedford, Massachusetts. Mayor Mitchell has 
developed solar projects on contaminated sites which is also 
something that is happening near my district in East St. Louis. 
Turning contaminated sites into solar seems like an excellent 
way to develop infrastructure while addressing blighted areas 
within our communities.
    In the implementation of our air laws, the states, 
localities, and the private sector all face challenges in 
developing new infrastructure or manufacturing projects.
    As noted in past Committee hearings, when companies seek to 
invest in large capital projects, they need realistic and 
predictable project timelines. This is necessary to plan 
designs, procurement, installation, and operations. Yet 
uncertainties in the process for obtaining air permits can lead 
to costly delays and decisions not to invest in these projects.
    EPA is required to make new source permit decisions one 
year after a completed application is filed. An analysis that 
looked at preconstruction permits for power plants and 
refineries, however, found that while permits in the late 1990s 
averaged around 160 days, from 2002 to 2014 it took an average 
480 days to issue a decision on a permit application.
    In other cases, we see EPA setting new air standards, but 
failing for years to issue implementation regulations. EPA took 
nearly seven years to issue guidance on how to comply with its 
2008 ozone standards. It took more than 3 years to issue final 
implementation regulations for its 2012 particulate matter 
standards.
    The unnecessary delays for project developers and city and 
state planners just add up and result in the costly waste of 
time and project investments idling on the sidelines.
    We should be able to do better than this. In today's modern 
economy, it makes no sense that we cannot have more efficient 
permitting processes or more timely guidance from the 
regulatory agencies.
    Our witnesses today will provide local, state, and national 
perspectives that should help guide us as we consider 
commonsense measures to expand economic opportunity by 
modernizing certain environmental statutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. And welcome to our 
panelists and to the new members of the Energy and Commerce 
Committee on both sides of the aisle. I look forward to working 
with you all as a member of this committee.
    Decades of American history demonstrate we can grow our 
economy and create jobs while improving our environment and 
public health. I am not convinced that trend is about to 
change. I want to make it clear from the start of this hearing 
that our environmental protections provide significantly 
greater benefits than costs to society. It results in healthier 
people, which means fewer sick days, asthma attacks, hospital 
visits, and premature deaths, among many other benefits.
    OMB estimated that major rules promulgated by EPA from 2004 
to 2014 generated benefits between $160 and $788 billion 
compared to $38 to $45 billion in costs. Clean Air Act 
protections account for the majority of these benefits, and 
have prevented millions of lost work and school days. The 
Cross-State Air Pollution Rule had a benefit-to-cost ratio 
exceeding 50 to 1. And a clean power plant will reduce carbon 
pollution while saving lives.
    Strong laws can prevent environmental disasters. When our 
laws fail to protect people, the cost can be tremendous.
    I want to thank Ms. Mays for being here today from Flint, 
Michigan. It is important for members to hear about the harm 
that was done to thousands of our fellow Americans and how it 
could have been prevented by better laws and greater investment 
from the Federal Government. The price of this disaster will 
far exceed the investment that would have been necessary to 
prevent it.
    The case of Flint should make it clear that real 
infrastructure investment is indeed needed. We cannot fool 
ourselves into thinking it can only be done through 
deregulation. We need federal dollars behind our efforts.
    So I would agree that some of our environmental laws should 
be updated. And I would suggest starting with strengthening the 
Safe Drinking Water Act. Our water infrastructure is crumbling. 
In many communities it is becoming a liability to economic 
growth, to public health and to safety.
    Democratic members of this subcommittee have reintroduced 
legislation to improve the Safe Drinking Water Act. It has been 
21 years since we last updated this law. It is past time to 
reauthorize the drinking water SRF which has received flat 
funding since its inception, despite growing needs and aging 
infrastructure. We must give EPA the authority necessary to be 
able to set standards and require an update of the Lead and 
Copper Rule.
    Similarly, our Brownfields law is in need of an update. 
This program has been incredibly successful by every method, 
and it is a great investment. Every federal dollar leverages 
between $17 and $18 in other public and private funding. 
Cleaning up these sites has environmental, health, and economic 
benefits, including increasing nearby residential property 
values and putting unused properties back on local tax rolls.
    But many of the easy Brownfields have been cleaned up. In 
addition to more flexibility, we need to examine whether the 
funding level for individual sites and the overall program is 
adequate. For both water and Brownfields, strengthening these 
laws would create jobs, protect public health, and ease the 
burden on local governments. Last Congress this subcommittee 
worked together on TSCA reform, a law that industry, consumer 
protection, and environmental stakeholders all agreed needs to 
be brought into the 21st Century. I hope we can find common 
ground again this Congress to improve laws where a consensus 
exists on the need for reform.
    Based on the testimony we will hear this morning, I think 
there are strong cases to start with drinking water and 
Brownfields.
    And with that, Mr. Chair, I would like to yield my 
remaining time to Representative Doris Matsui from California.
    Ms. Matsui. Thank you very much, Ranking Member Tonko, 
yielding time.
    Strong investment in water infrastructure is vital to our 
health and safety. As we have seen tragically this week in 
California at Oroville Dam, aging and neglected infrastructure 
threatens lives.
    Just 70 miles south of Oroville at Folsom Dam, which is 
just upstream from my district in Sacramento, we are 
demonstrating the positive impact infrastructure can have. I 
worked tirelessly to ensure the millions of dollars in federal 
investment over the last decade building a spillway, which is 
making our residents safer, our regions more secure. That also 
involves environmental standards, too.
    Water infrastructure is vital for public safety and public 
health. Instead of rushing to weaken our environmental 
standards, I hope we can come together to make real commitments 
to maintaining and improving infrastructure in all our 
communities.
    Thank you. And I yield back.
    Mr. Shimkus. The gentlelady yields back her time.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Pallone for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Our nation's crumbling infrastructure is a pressing issue 
that we must address. And in this subcommittee that means 
investing in drinking water infrastructure, Superfund cleanups, 
and Brownfield grants. Our current investments in these 
critical public health programs is simply not enough. This 
week's evacuation in California related to the Oroville Dam are 
the latest example, but far from the only example.
    My Democratic colleagues and I have repeatedly introduced 
legislation to modernize and fund these infrastructure 
programs. The Republicans have consistently opposed or blocked 
these efforts.
    Today I join many of the Democrats on this subcommittee in 
announcing the reintroduction of the Safe Drinking Water 
amendments and Ranking Member Tonko's AQUA Act to fund drinking 
water infrastructure efforts. When Democrats controlled the 
House, the AQUA Act passed easily on a bipartisan voice vote. 
But since Republicans took over they have avoided the issue. 
And I hope this hearing is a sign that Republicans are ready to 
join our infrastructure efforts.
    As the Federal Government has pulled back infrastructure 
funding in recent years, the backlog of infrastructure repairs 
and replacement has grown, and so has the price tag to address 
it. Laying pipe replacements into water mains burst costs more 
than planning ahead. Delaying Superfund cleanups while 
contaminants spread in the environment costs more than quickly 
containing and addressing pollution.
    In the long run we're not saving money by ignoring the 
problem. And only public funding can close the gap to the 
communities in need. Now, I expect my Republican colleagues 
will suggest today that the key to spurring infrastructure is 
environmental deregulation instead of public funding. But that 
approach is dangerous and shortsighted.
    Environmental protections are essential for public health, 
for the economic viability of our communities, and for the 
preservation of our natural resources. The benefits of 
environmental protections far outweigh the costs, and so 
repealing those protections would hurt far more than it would 
help. Cutting environmental protections may benefit some in the 
short term, but others will pay with their health and welfare.
    We will hear today from Melissa Mays, a resident of Flint, 
Michigan. The ongoing drinking water crisis in Flint will only 
be solved with significant federal funding. Melissa's 
experience shows why environmental protections are so important 
and what can happen when short-term economic decisions overrule 
environmental considerations. Any efforts by Republicans in 
Congress and President Trump to remove environmental 
protections will have lasting consequences, unleashing 
dangerous pollution that could take decades to clean.
    We will also hear today from the Mayor of New Bedford, 
whose harbor is a Superfund site thanks to the unrestricted 
dumping of PCBs decades ago. That harbor, like the Superfund 
sites in my district, shows the long-term costs of having to 
clean up pollution, costs that could have been avoided if 
stronger environmental protections had been in place.
    Mayor Mitchell will also tell us about new clean energy 
jobs in New Bedford, in both the solar and wind energy 
industries. These are good jobs, driven in part by 
environmental protections.
    And there are numerous small manufacturers nationwide that 
develop and manufacture air pollution control equipment. The 
experienced and innovative technologies produced in this sector 
position these manufacturers as leaders in international 
markets for pollution control and environmental services. 
Repealing air quality regulations will not only eliminate vital 
public health protections, it will also kill those jobs.
    When it comes to infrastructure, Democrats will continue to 
fight for the federal investments our communities need. These 
investments strengthen public health while also creating good-
paying jobs. And when it comes to environmental protections, 
Democrats will continue to lead the fight for safe drinking 
water, clean air, and clean land. We can have a safe 
environment and a strong economy. In fact, in the long run, a 
safe environment is absolutely necessary for a strong economy.
    And I will yield back unless anybody else wants my time, 
Mr. Chairman.

             Prepared statement of Hon. Frank Pallone, Jr.

    Our nation's crumbling infrastructure is a pressing issue 
that we must address, and in this Subcommittee that means 
investing in drinking water infrastructure, Superfund cleanups, 
and Brownfields grants. Our current investments in these 
critical public health programs are simply not enough. This 
week's evacuations in California related to the Oroville Dam 
are the latest example, but far from the only example.
    My Democratic colleagues and I have repeatedly introduced 
legislation to modernize and fund these infrastructure 
programs, but Republicans have consistently opposed or blocked 
those efforts.
    Today, I join many of the Democrats on this Subcommittee in 
announcing the reintroduction of the Safe Drinking Water Act 
Amendments and Ranking Member Tonko's AQUA Act to fund drinking 
water infrastructure efforts. When Democrats controlled the 
House, the AQUA Act passed easily on a bipartisan voice vote. 
But since Republicans took over, they have avoided the issue. I 
hope this hearing is a sign that Republicans are ready to join 
our infrastructure efforts.
    As the federal government has pulled back infrastructure 
funding in recent years, the backlog of infrastructure repairs 
and replacement has grown, and so has the price tag to address 
it. Delaying pipe replacements until water mains burst costs 
more than planning ahead. Delaying Superfund cleanups while 
contaminants spread in the environment costs more than quickly 
containing and addressing pollution. In the long run, we are 
not saving money by ignoring this problem. And only public 
funding can close the gap for the communities in need.
    I expect my Republican colleagues will suggest today that 
the key to spurring infrastructure is environmental 
deregulation, instead of public funding. That approach is 
dangerous and short-sighted.
    Environmental protections are essential for public health, 
for the economic viability of our communities, and for the 
preservation of our natural resources. The benefits of 
environmental protections far outweigh the cost, so repealing 
those protections would hurt far more than it would help. 
Cutting environmental protections may benefit some in the short 
term, but others will pay with their health and welfare.
    We will hear today from Melissa Mays, a resident of Flint, 
Michigan. The ongoing drinking water crisis in Flint will only 
be solved with significant federal funding. Melissa's 
experience shows why environmental protections are so 
important, and what can happen when short term economic 
decisions overrule environmental considerations.
    Any efforts by Republicans in Congress and President Trump 
to remove environmental protections will have lasting 
consequences, unleashing dangerous pollution that could take 
decades to clean.
    We will also hear today from the mayor of New Bedford, 
Massachusetts, whose harbor is a Superfund site thanks to the 
unrestricted dumping of PCBs decades ago. That harbor, like the 
Superfund sites in my district, shows the long-term costs of 
having to clean up pollution - costs that could have been 
avoided if stronger environmental protections had been in 
place.
    Mayor Mitchell will also tell us about new clean energy 
jobs in New Bedford, in both the solar and wind energy 
industries. These are good jobs, driven in part by 
environmental protections.
    There are numerous small manufacturers nationwide that 
develop and manufacture air pollution control equipment. The 
experience and innovative technologies produced in this sector 
position these manufacturers as leaders in international 
markets for pollution control and environmental services. 
Repealing air quality regulations would not only eliminate 
vital public health protections, it would also kill those jobs.
    When it comes to infrastructure, Democrats will continue to 
fight for the federal investments our communities need. These 
investments strengthen public health while also creating good-
paying jobs. And when it comes to environmental protections, 
Democrats will continue to lead the fight for safe drinking 
water, clean air, and clean land.
    We can have a safe environment and a strong economy. In 
fact, in the long run, a safe environment is absolutely 
necessary for a strong economy.

    Mr. Shimkus. The gentleman yields back his time.
    The Chair looks to the majority side to see if anyone else 
wants to do an opening statement. The Chair recognizes the 
gentleman from Texas Mr. Barton for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. I won't take 5 minutes, Mr. Chairman, but you 
are gracious to give me that time.
    First, I want to congratulate you on chairing this 
subcommittee. A long time ago I chaired a similar subcommittee 
that had kind of the jurisdiction of Mr. Upton's subcommittee 
and your subcommittee; we did energy and environment. And it 
should be that way because they exist together. So I am very 
pleased that you chair the subcommittee and have the 
jurisdiction that this subcommittee has.
    I want to welcome our witnesses to the first hearing of 
this subcommittee. This is an important issue. Republicans hear 
the Democratic side, who seem to think we are ready to rape and 
pillage the environment. Nothing could be further from the 
truth.
    We do want to review our environmental statutes and put 
them in context with where we are today in terms of economic 
development. You can have both. You can have positive economic 
development and effective environmental protection. And I think 
this hearing is going to lead us to begin to do that.
    I would hope, Mr. Chairman, that as we go through the 
hearing process we, we take a serious look at, to the extent we 
want to reform, review, change some of the environmental 
statutes, that we put in a true, effective cost-benefit 
analysis. I see no reason we can't use real numbers and real 
science, as opposed to some of the studies that the Obama 
Administration did.
    I was here when we did the Clean Air Act amendments early 
'90s. I was here when we passed the last Safe Water Drinking 
Act. Then Chairman John Dingell worked across the aisle to 
craft both of those pieces of legislation. And I'm sure you and 
Mr. Weldon hope to do the same thing with Mr. Pallone and the 
Democrats.
    I hope we also take a real look at CO<INF>2</INF>. I know 
that's not the direct purpose of this hearing, Mr. Chairman, 
but there is no question that the criteria pollutants in the 
Clean Air Act, mercury and SO<INF>2</INF> and NAAQS and 
particulate matter, that they are true pollutants.
    CO<INF>2</INF> is a little different animal. It's not 
directly harmful to human health. The theory is that the amount 
of manmade CO<INF>2</INF> has somehow tipped the balance in the 
upper atmosphere, and that is causing, over long periods of 
time, consequences that are negative. It is not entirely clear 
whether that is an absolutely true fact or not as opposed to a 
theory. And I hope we will, I hope we will take a look at that 
and, if necessary, clarify what a pollutant is under the terms 
of the Clean Air Act.
    In any event, Mr. Chairman, you are gracious with your 
time. I appreciate you yielding to me. And I look forward to 
this hearing and to our witnesses.
    Let me say one other thing. The minority has somehow 
decided that Flint, Michigan, is a federal issue. There is no 
question that if we do an infrastructure bill we can lend a 
helping hand to many communities around the country that need 
to upgrade their water systems. But to say that the reason that 
Flint, Michigan, happened is because of lack of federal 
initiative is not a true statement.
    That was a state and local issue. The local community and 
the state did not do their job. And I know we have the 
gentleman from Michigan Mr. Walberg, now on the committee, and 
he may have a different view about that. But we certainly want 
to help the Flint, Michigans of the world, but to say that that 
is now a federal responsibility 100 percent, I strongly 
disagree with.
    But I yield.
    Mr. Shimkus. The gentleman yields back his time.
    So, again, welcome to the panel. This is how we operate:
    You all submitted your opening statements for the record. I 
will recognize each one of you for 5 minutes to kind of 
summarize. And then we will go on to questions. And it should, 
it should go real well.
    So first off we'd like to welcome the Honorable Jonathan 
Mitchell, Mayor of New Bedford, Massachusetts. Sir, welcome. 
You have 5 minutes and you are recognized.

 HON. JONATHAN F. MITCHELL, MAYOR, NEW BEDFORD, MASSACHUSETTS; 
   KEVIN SUNDAY, DIRECTOR, GOVERNMENT AFFAIRS, PENNSYLVANIA 
CHAMBER OF BUSINESS AND INDUSTRY; MELISSA MAYS, FOUNDER, WATER 
YOU FIGHTING FOR?; EMILY HAMMOND, GEORGE WASHINGTON UNIVERSITY 
 LAW SCHOOL ON BEHALF OF CENTER FOR PROGRESSIVE REFORM; THOMAS 
   M. SULLIVAN, VICE PRESIDENT, SMALL BUSINESS POLICY, U.S. 
  CHAMBER OF COMMERCE; AND ROSS E. EISENBERG, VICE PRESIDENT, 
 ENERGY RESOURCES POLICY, NATIONAL ASSOCIATION OF MANUFACTURERS

                   STATEMENT OF MR. MITCHELL

    Mr. Mitchell. All right. Thank you, Mr. Chairman. Good 
morning, members of the committee, subcommittee.
    My name is Jon Mitchell. I am the Mayor of New Bedford, 
Massachusetts. And I am pleased to be here to testify on behalf 
of the United States Conference of Mayors where I chair the 
Energy Committee.
    Today I want to discuss the importance of reauthorizing and 
modernizing the Brownfields law and by describing how New 
Bedford has used the program and turned environmental 
liabilities into environmental assets. If Congress is 
interested in giving economic development tools to communities, 
reauthorizing and modernizing the Brownfields law should be a 
cornerstone of that effort.
    Let me give you a little bit of background on New Bedford.
    New Bedford was the world center of the 19th Century 
whaling industry, and later became a national center for cotton 
textile manufacturing. Today the city has recaptured its 
national leadership in the maritime sector as the number one 
commercial fishing port in the United States. Our city 
historically has struggled, however, with high unemployment 
rates and demographic challenges, like most older, industrial 
urban centers.
    That said, the city and the region are in the midst of a 
noticeable transformation. This past year we enjoyed the 
sharpest drop in unemployment of any metropolitan area in 
America. When I came into office 5 years ago the unemployment 
rate hovered around 14 percent. And today it is 3.7 percent.
    With two major Superfund sites, hundreds of Brownfield 
sites and a few remaining opportunities for so-called 
greenfield commercial development, New Bedford has come to 
recognize that our path to continuing our trajectory of growth 
and prosperity lies in part in unlocking the potential of 
contaminated sites through innovative new approaches.
    I would like to highlight two of our projects: a 
traditional Brownfield site and a redeveloped Superfund site.
    New Bedford's upper harbor is host to dozens of historic 
textile mill buildings. With a healthy real estate market and 
spectacular views of the river and marshlands, private sector 
investors there in that part of the city have recognized the 
potential for conversion of these mills to residences. The city 
has moved forward with plans to construct a recreational bike 
path along this particular area that would follow the shoreline 
between the mill buildings and the water's edge.
    The fundamentals of economic activity are all in place. 
That said, an important underlying factor has been, throughout 
the period of redevelopment, Brownfield grant funding. In key 
instances, grants have helped catalyze and support New 
Bedford's mill conversion projects. And this is a problem that 
is similar in so many cities across America.
    Targeted Brownfield funds have been used creatively to fill 
important gaps and cover assessment and remediation costs that 
were problematic for the city and its private sector partners. 
For example, the city was recently awarded two $200,000 
Brownfield cleanup grants that paid for the remediation of two 
derelict large fuel tanks along the river. And that led, that 
opened the doors up for redevelopment. All told, multiple 
waterfront buildings have now been converted, and tens of 
millions of dollars have been invested, and hundreds of 
construction jobs were created, all as a result of this 
unlocking of the door through Brownfield grants.
    It also may, and turning to the other project, it may 
surprise you that, according to The Wall Street Journal, the 
City of New Bedford has the distinction of having the most 
installed solar capacity per capita of any municipality in the 
continental United States. We are actually beaten by Honolulu, 
for obvious reasons.
    I would like to highlight our flagship solar project, which 
is the Sullivan Ledge Solar Project, because it is a great 
example of the creative re-use of a contaminated site that has 
helped support local jobs and deliver bottom line benefits.
    Sullivan's Ledge was one of the country's most high-profile 
Superfund sites. Today, atop a cleaned and capped landfill, 
sits a 1.8 megawatt solar farm with over 5,000 solar panels 
that generate electricity to support over 200 homes. Our effort 
was far from easy, but it required a great deal of creativity 
by pulling in PRPs and getting very creative about some of the 
technical hurdles that we had to confront. But it is now, 
indeed, an environmental asset.
    So what does all this mean to us as we look at Brownfields 
and Congress' role in supporting Brownfield redevelopment? It's 
this, and members touched upon this directly: whole funding of 
the Brownfields program. At the current levels EPA funds only 
30 percent of the applications. And this is a very good 
investment in cities, especially ones like mine, creating a 
multi-purpose grant that enhances flexibility for cities to 
move money around to the sites that need it the most. Increased 
cleanup of grant amounts is, in particular, a cleanup grant as 
opposed to assessment is especially important.
    And then there are a handful of other things, like allowing 
reasonable administrative costs in the grant program, 
clarifying grant eligibility for publicly-owned sites, removing 
barriers for local and state governments to address mothballed 
sites, and encouraging Brownfield cleanups by so-called good 
Samaritans.
    In closing, Brownfield redevelopment is a win/win for 
everyone involved. And it creates jobs, cleans up the 
environment, and it is pro business and pro community.
    And I thank you again for the opportunity, Mr. Chairman, to 
speak to all these matters.
    [The statement of Mr. Mitchell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Shimkus. Thank you very much.
    Now I will turn to Mr. Kevin Sunday, Director of Government 
Affairs at Pennsylvania's Chamber of Business and Industry. 
Your full statement will go into the record. You have 5 minutes 
and you are recognized.

                   STATEMENT OF KEVIN SUNDAY

    Mr. Sunday. Thank you and good morning, Chairman Shimkus, 
Ranking Member Tonko, members of the subcommittee. It is an 
honor to appear before you this morning on behalf of the PA 
Chamber.
    My name is Kevin Sunday, Director of Government Affairs. 
The PA Chamber is the largest broad-based business advocacy 
association in the state, a state that is second in the nation 
in total energy production, and in the top ten for 
manufacturing output. Among states, we have the fourth highest 
coal production, the second largest natural gas production, the 
second largest nuclear fleet. We are, in short, a big energy 
state.
    Pairing these assets with the generational opportunities 
before us with pipeline and the electric transmission 
infrastructure mean we have the opportunity of a lifetime to 
grow our economy in a way that we haven't seen in decades. And 
that means we can take advantage of every facet of the value 
chain from energy production and power generation, to 
infrastructure, to manufacturing and refining. Each segment of 
that value chain relies and builds upon one another. And when 
we encourage the growth of one, we encourage opportunity in the 
others.
    And we are starting to see some of that happen in our 
state. For example, we have had a shuttered steel mill 
reopening because of demand for new pipe. Domestic energy 
production gave three refineries in Southeast Pennsylvania and 
their thousands of employees, many of them union, a new life. A 
global integrated gas company picked Southwest Pennsylvania for 
a multi-billion dollar petrochemical facility. It is the first 
time in decades that anyone is talking about building that kind 
of operation outside of the Gulf Coast.
    Those are just a couple examples. I have many more in my 
testimony. And I would like to say that those kinds of 
opportunities are so common that our unemployment rate is among 
the lowest in the country, but it is not. In fact, it trails it 
by almost a full point. And that is because we are leaving 
opportunity on the table.
    We do need a skilled and ready workforce and we do need a 
competitive tax, trade, and labor policy to compete as a state 
and as a country, but we also need a modernized approach to our 
nation's environmental laws and the implementation of them so 
that we can promote economic opportunity without sacrificing 
environmental progress.
    The current air quality compliance obligations are 
draconian. We have an energy-intensive manufacturing facility 
in Southeast Pennsylvania, and they spend more on annual air 
quality compliance than they spent buying the entire operation 
a few years ago for $180 million.
    We have another company that spent $100 million on control 
equipment for emissions that the facility will never produce.
    New regulatory obligations are being handed down faster 
than it takes to get a permit, and the obligations have become 
inordinately complex. State regulators are tied up due to a 
lack of guidance coming from federal agencies, and we would 
encourage Congress to take a hard look at how national ambient 
air quality standards are revised and implemented.
    The EPA's use of unrealistic modeling in establishing NAAQS 
designations and in permitting evaluations is discouraging 
growth. We have heard first-hand companies declining to invest 
in Pennsylvania because of ozone transport requirements. And 
research is clear, such as that of Michael Greenstone, who was 
President Obama's Chief Economist on the Counsel of Economic 
Advisers, that the consequences of being designated non-
attainment are severe, with billions of lost economic activity.
    With regards to permitting, the current structure requires 
companies to account for emissions they will never actually 
emit. We have seen a number of our companies stuck in an 
endless loop of litigation and appeals. We also should rethink 
the current offset approach that requires one facility to shut 
down or retire so that another one can operate.
    And, finally, when it comes to moving and using energy, we 
have lost opportunity because of delays in permitting new 
infrastructure, which require years of review from nearly a 
dozen state and federal agencies. What has already been 
permitted is at risk to litigation, which is going to delay 
things even further. We would encourage Congress to take the 
opportunity to step in and provide clear guidance on what the 
National Energy Policy Act should and shouldn't cover.
    And I would encourage this committee that, if nothing else, 
as I have said in my remarks and testimonies for you to act, I 
would remind you that today is the fifth anniversary of the 
Mercury and Air Toxics Rule being published in the Federal 
Register. That rule, I would remind you, was estimated by EPA 
to cost $10 billion to secure $4 million. Again, $10 billion in 
cost for $4 million in benefit for mercury reduction. And I 
should also note that EPA was off by a factor of four regarding 
how much coal generation would shut down in the wake of the 
rule.
    I have some recommendations in my testimony I would 
encourage you and the administration to take a look at. Our 
challenges are many but our opportunities are greater. And I 
would encourage that we embark on a process that incentivizes 
innovation and growth in emissions reduction, not one that 
encourages litigation and needless bureaucracy.
    Thank you.
    [The prepared statement of Mr. Sunday follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Shimkus. Thank you.
    Now I will turn to Ms. Melissa Mays, Founder of Water You 
Fighting For, obviously from the Flint, Michigan, area. You are 
recognized for 5 minutes. Thanks for coming.

                   STATEMENT OF MELISSA MAYS

    Ms. Mays. Thank you.
    Today is day 1,028 since we have had clean and safe water 
in the city of Flint, Michigan. We are coming up on the third 
anniversary of the irresponsible switch of our water source and 
the subsequent failure of our government to properly treat and 
protect our ageing infrastructure and, more importantly, our 
lives.
    The last 1,028 days have been nothing short of a living 
hell for the 100,000 residents of Flint. The lack of stronger, 
enforced environmental regulations allowed our state Department 
of Environmental Quality to get away with loopholes in the Lead 
and Copper Rule for testing and reporting. In the effort to 
save just a few dollars per day, they exploited the weak 
existing rule, the defunded EPA, and poisoned 100,000 innocent 
people, people who depended on their government to provide the 
simplest of services: clean, safe water.
    Children like mine were never warned to not go get a glass 
of water out of the taps because there might be hidden 
neurotoxins in the water that are invisible to the naked eye. 
Senior citizens never stopped to think twice about the 
dangerous unwanted chemicals they were drinking while taking 
their prescribed medication. I never imagined that the water I 
was filling my workout bottle with before heading to the gym 
could possibly kill me.
    Because of the travesties like the hugely outdated Lead and 
Copper Rule and the absence of bathing and showering standards, 
nearly 200 people have died from pneumonia caused by bacteria 
in our water. For the past four weeks I have been suffering 
from a respiratory infection, plus ear infections because of 
the bacteria pseudomonas aeruginosa which is present in my 
shower at a plate count of 2.9 million.
    Before 2014, before we were poisoned, I had three happy, 
healthy, active sons. My oldest, Caleb, tested into a dual-
enrollment school where he could take high school and college 
courses at the same time and be able to graduate with a diploma 
and an Associate's Degree.
    My middle child, Christian, is sharp. His teachers have 
wanted to accelerate him a grade since elementary school.
    My youngest, Cole, is the sweetest boy you could ever meet 
with his little dimples, adorable baby voice, and his 
everlasting innocence, which is now lost because he knows he is 
poisoned by politicians who wanted to save money.
    Fast forward to today after our poisoning. Caleb almost 
failed his junior year because he could not remember his 
homework he had done the night before and would fail his tests. 
He called it brain fog. And so he had to relearn how to learn. 
Imagine going through 12 years of school and having a teacher 
bring a different way to remember because of being exposed to 
lead; copper; aluminum; total trihalomethanes; chloroform; 1,4, 
Dichlorobenzene; Bromodichlormethane; acetone; bacteria; and 
numerous other contaminants through drinking water and 
showering in your own home.
    Christian and Cole have severe bone and joint pain, as lead 
settles in your bones as well as your growth plates. For kids 
ages 9 to 14, the growth plates are open and spongy to 
accommodate their muscles and joints to be able to stretch as 
their bones hit those typical 4-inch growth spurts. Both he and 
Cole are to start their second round of painful physical 
therapy since their growth plates are hardening prematurely.
    Christian and Cole talk about the brain fog as well. And it 
terrifies me. Because even I know that your brain continues to 
develop until you are 25. My sons are also seeing a 
rheumatologist, which comes with a lot of blood work. 
Unfortunately, Christian passes out when it comes to needles. 
This will carry on for the rest of my sons' lives because 
someone wanted to save money.
    My husband is 41 and has dizzy spells to where he nearly 
faints and is in constant pain. I am 38. I have a 
rheumatologist for my brand new autoimmune disorder that looks 
like lupus. I have a neurologist for my new seizures, as lead 
and copper are stored in your brain. I have a 
gastroenterologist because drinking caustic water tears up the 
pipes in the ground as well as your intestines, so I have IBS 
and diverticulosis.
    I have consulted with a toxicologist and environmental 
physician who helped us develop a detox plan, but says it is 
moot since we are still being exposed in the shower to the 
dangerous toxins as our pipes crumble in the ground. And now I 
have an infectious diseases doctor to help with the bacterial 
infections I am now fighting.
    We use only bottled water to cook with, drink, brush our 
teeth, and give our pets because the water is too unsafe. We 
spend so much time either sick, going to the doctor, taking 
tons of medication, or buying shower filters. Try to picture 
that in your head before suggesting that protecting your 
family's health and mine is too expensive.
    Tell that to the restaurants in Flint that closed down 
because residents don't want to drink lead in their coffee or 
eat bacteria in their chicken noodle soup. Tell that to the 
dentist who lost patients because no one wanted a cleaning with 
a neurotoxin-laced water. Tell that to the families of the 
people that have died from Legionnaire's Disease, which is 
entirely preventable with tougher environmental laws and 
investment in infrastructure. Tell them their loved ones' lives 
are not worth businesses taking the proper precautions to not 
poison their customers.
    Since the infrastructure in Flint is still failing, mains 
break, and pipes leak into the ground, our sidewalks are 
crumbling, our streets are caving in causing huge sink holes 
that makes it dangerous for ambulances to rush down the street, 
my street, to the hospital on emergencies. And our homes have 
flooded basements as the water table fills up.
    There is no amount you can place on the safety, health, and 
well-being of tax-paying human beings and pets living in this 
country. So before cutting back on environmental regulations 
and infrastructure funding, find somewhere else. We pay our 
taxes so our government can do their job and ensure something 
as simple as life-sustaining clean, safe water. Seeing and 
suffering first-hand the devastation that can and will happen 
with reduced or weakened environmental regulations and 
decreased funding for infrastructure updates has opened my eyes 
as to where we are as a country, and it is scary.
    The health, safety, futures, and lives of the residents 
have fallen far beyond the desire to cut costs and pocket more 
money. This is short-term thinking, and it is reckless. If you 
want to protect your constituents' lives, you must implement 
updated and stringent, environmentally sound regulations and 
pollution restrictions, otherwise you will just be ushering in 
thousands of more Flints across this great country of ours.
    I hope that the pain and suffering of my family, my sons, 
is a lesson and a warning to each of you. Put yourself in our 
shoes before you slash regulations to make a profit.
    Thank you.
    [The prepared statement of Ms. Mays follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Shimkus. Thank you.
    The Chair now recognizes Ms. Emily Hammond, Professor of 
Law at George Washington University Law School. You are 
recognized for 5 minutes.

                   STATEMENT OF EMILY HAMMOND

    Ms. Hammond. Thank you, Chairman, Ranking Member Tonko, and 
distinguished members of the subcommittee for the opportunity 
to testify today.
    Make no mistakes about where we started. The Cuyahoga River 
really did catch fire. Toxic waste really did ooze into homes 
and schoolyards in Love Canal. Millions have suffered from lung 
disease, heart attacks, and premature deaths because of our 
dirty air. And, as Ms. Mays just testified, we cannot afford to 
let our memories grow short.
    I use the word ``afford'' intentionally because I will 
begin today by discussing how environmental law has helped our 
economy thrive. Next, I will describe why efforts to tamper 
with our regulatory process, efforts like the 2 for 1 Executive 
Order, systematically undermine not just the benefits we have 
gained but our prospects for the future.
    Look what decades of experience show. Between 1970 and 
2011, air pollution dropped 68 percent but the gross domestic 
product increased 212 percent. During that same period, private 
sector jobs increased by 88 percent.
    Consider as well that the rules issued by EPA undergo a 
rigorous cost-benefit analysis. EPA is required by the Office 
of Management and Budget to follow accounting principles and 
assess both the costs and the benefits of regulations. These 
constrained analyses badly underestimate the benefits of 
environmental regulations. After all, how can you value a human 
life with the staggering beauty of the nature world.
    Because of this under valuation, however, OMB-driven cost-
benefit analyses are very conservative. I will use the Clean 
Air Act as an example.
    Air pollutants have numerous adverse health and 
environmental effects. Ozone, for instance, is linked to 
respiratory illnesses, heart attacks, premature death, and 
negative effects on forests and crops. When people are sick, 
when they are caring for their ill loved ones or dying too 
early, they cannot work, they cannot go to school. That hurts 
business.
    By contrast, environmental protections offer savings. EPA's 
Clean Air Act rules saved over 164,000 lives in 2010. And they 
are projected to save 237,000 lives in 2020. These same rules 
saved 13 million days of work, and 3.2 million days of missed 
school in 2010. By 2020, these numbers will increase to 17 
million days of work and 5.4 million days of school.
    A study published in the proceedings of the National 
Academies of Sciences found the cumulative benefits to the 
economy of Clean Air Act air toxic regulations alone to be over 
$104 billion by 2050.
    Why are we reaping these benefits? Because our air, water, 
and soil are cleaner than they were decades ago. There is, 
however, very much still to do. And I urge this institution to 
ensure full funding for our environmental regulatory programs, 
including enforcement, for critical infrastructure upgrades, 
for Brownfields funding, and for efforts to fight climate 
change.
    As we move forward with strengthening our environmental 
protections we must also ensure that our regulatory process is 
sound. The White House's January 30th 2 for 1 Executive Order 
is an example of sloppy regulatory policy that will be harmful 
to the public, especially with respects to environmental law. 
The order systematically disfavors the critical prevention 
protections that we need to ensure a thriving economy and 
healthy future. Most stunningly, it appears to direct agencies 
to count regulatory costs but not consider their benefits. This 
ignores this institution's directions. This institution enacted 
those environmental laws to secure their many benefits.
    Environmental laws were enacted to ameliorate classic 
market failure. Polluters do not like to pay for the 
consequences of their actions. But these laws do more. They 
represent our society's recognition of a moral obligation to 
protect our neighbors, our children, our natural environment, 
and our future. There is still a great deal more to do, and we 
cannot afford complacency, whether in our environmental laws or 
in the regulatory process.
    Thank you.
    [The prepared statement of Ms. Hammond follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Shimkus. Thank you.
    The Chair now recognizes Mr. Thomas Sullivan, Vice 
President of Small Business Policy at the U.S. Chamber of 
Commerce. You are recognized for 5 minutes. Welcome.

                  STATEMENT OF THOMAS SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman, and Ranking Member 
Tonko, members of the subcommittee.
    My name is Tom Sullivan and I run the Small Business 
Council at the U.S. Chamber of Commerce. The Chamber is the 
world's largest business federation. We represent the interests 
of three million businesses as well as state and local 
chambers, and industry associations. The majority of our 
business members are small firms. In fact, approximately 96 
percent of Chamber members' companies have fewer than 100 
employees, and 75 percent have fewer than ten.
    Maxine Turner, who is the founder of Cuisine Unlimited in 
Salt Lake City, chairs our Small Business Council, which works 
to ensure the views of small business are considered as part of 
the Chamber's policy making process.
    I am especially pleased to join our partners at the 
Pennsylvania Chamber of Commerce on this panel. The U.S. 
Chamber was founded by a group of chambers in 1912. They are 
the backbone of our institution. And that is as true today as 
it was 105 years ago.
    I have spent most of my professional career advocating for 
small business, first at NFIB, and then from 2002 to 2008, I 
was honored to serve as the Chief Counsel for Advocacy at the 
Small Business Administration. That office is charged with 
independently representing the views of small business. And it 
oversees agency compliance with the Regulatory Flexibility Act, 
which is also sometimes called the Small Business Regulatory 
Enforcement Fairness Act, or an acronym called SBREFA.
    It is the purpose of those laws that guides my testimony 
this morning, that early input by small businesses in the 
development of legislation and regulatory policy should serve 
as a model for modernizing environmental statutes, as well as 
the government's role implementing the law. Many times federal 
laws and regulations that may work for large corporations don't 
work for small firms.
    Several years ago I worked with a group of small businesses 
in Quincy, Illinois, who found themselves in the crosshairs of 
Superfund. The authors of Superfund never intended to target 
small business owners like Greg Shierling, who owned two 
McDonald's, and Mack Bennett, who owned a furniture store, or 
Barbara Williams, who owned a diner in Gettysburg, 
Pennsylvania. The unintended consequences of a one size fits 
all statute forced small business owners to spend thousands in 
legal fees for settlements when they really had not done 
anything wrong.
    Thankfully, Congress took action and exempted innocent 
small businesses from Superfund in 2001.
    Whether it is reauthorizing a new law, creating a new 
agency, or when agencies craft new regulations, government is 
well advised to solicit input and work with small businesses to 
devise solutions that maximize benefits of laws and regulation 
and minimize harmful economic impact. Recent figures show that 
there are over 28 million small businesses in the United 
States, and that small business has been responsible for 
creating about two-thirds of the net new jobs over the past 15 
years. However, the United States has experienced a decline in 
start-ups, and that trend threatens a full economic recovery.
    According to data from the Census Bureau, there were 
700,000 fewer net businesses created from 2005 to 2014 than 
from 1985 to 1994. More worrisome is recent evidence that 
suggests the number of transformational start-ups, those that 
contribute disproportionately to job and productivity growth, 
has been in decline since 2000.
    This decline in entrepreneurship and small businesses' 
increasing concern with regulatory burden are trends that 
should be reversed in order for the United States to experience 
growth. When agencies and small businesses work together and 
constructively find solutions, better regulation happens. There 
are examples of those win/win situations in my full written 
testimony. I would be happy to cite some of them during the 
questions.
    Congress is on the right track, looking at ways to 
modernize the regulatory process. The Regulatory Accountability 
Act, which is H.R. 5, as well as the Regulatory Flexibility 
Improvements Act, H.R. 33, have already passed the House of 
Representatives. Together these reforms, that passed with 
bipartisan support, that help ensure agencies rely on credible 
science and data, and bringing greater transparency to the 
rulemaking process, and bolster the involvement of small 
businesses in policy making, should do the job.
    America needs the economic strength job-creating power and 
innovative genius of small business in order to get back on 
track economically. Improvements to existing statutes will help 
calm the regulatory headwinds that prevent small business from 
being the economic engine of growth here in the United States.
    [The prepared statement of Mr. Sullivan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Mr. Shimkus. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Ross Eisenberg, Vice President 
of Energy and Resources Policy of the National Association of 
Manufacturers. You are recognized for 5 minutes. Welcome.

                  STATEMENT OF ROSS EISENBERG

    Mr. Eisenberg. Thank you very much. Good morning, Chairman 
Shimkus, Ranking Member Tonko, members of the subcommittee. I 
am very pleased to be here today representing the views of the 
12 million men and women who make things in America.
    We are in the midst of what we call a manufacturing moment. 
And it is really easy to see why. Manufacturing contributed 
$2.17 trillion to the U.S. economy in the most recent year that 
we have data for, 2015. That is up from $1.7 trillion in 2009.
    For every dollar spent in manufacturing, another $1.81 is 
filtered throughout the economy, which is the highest 
multiplier factor of literally any sector in the economy. 
Manufacturing has helped lift the country out of the Great 
Recession, and we have ignited a new generation economy.
    Manufacturers have sharply reduced our impact on the 
environment through a very wide range of innovations. The 
results benefit not only consumers but the broader communities 
beyond the manufacturing shop floor. And the overall numbers 
are indisputably good.
    I have included in my written statement EPA's latest air 
trends chart. And that is right off the EPA Web site. And you 
can see, I mean for criteria pollutants the trend lines for 
every single pollutant go straight down. And they have been 
doing straight down since, since 1990.
    When you add in the progress we have made on greenhouse 
gasses, where we have reduced more greenhouse gasses in this 
country than any other nation on Earth, we have a very good, 
and I would say tremendous story to tell.
    Now, environmental laws have been largely successful in 
reducing pollution. I don't think anybody really disputes that. 
In many cases they have been so successful that pollutants have 
been reduced to trace or even background levels. At the same 
time, these statutes were written four or five decades ago, and 
their drafters really couldn't have possibly envisioned how 
best to use these laws to tackle some of the environmental 
challenges in the 21st Century.
    These challenges include the West Coast being in perpetual 
ozone non-attainment because of emissions coming over from 
Asia, or states literally running out of controls needed to 
meet some of the newest air quality standards, or the fact that 
EPA often uses computer models in lieu of real monitoring, and 
they conflict at times, or how to possibly categorize different 
kinds of lands and water features in this country as simply 
waters of the United States, or how to handle climate change 
and greenhouse gas emissions.
    For example, in the vehicle sector we have three different 
agencies which lay claim to often very conflicting regulatory 
authority. Regulators are increasingly unable to adapt 
stringent programs to the progress that has been made and 
easily reshape them on their own to confront new environmental 
challenges. And when they try, they risk imposing requirements 
that are just simply not legally justifiable. History is 
littered with a long list of creative EPA regulations that have 
been held up by the courts. And that transcends politics and 
administration.
    Several recent regulations threaten to set new records for 
compliance costs, collectively strapping manufacturers with 
hundreds of billions of dollars in new regulatory burdens per 
year. From a manufacturing perspective we have lost a critical 
balance in our federal environmental policies between 
furthering progress and limiting unnecessary economic impacts. 
In our view, it doesn't have to be that way.
    The NAM recommends that Congress modernize outdated 
environmental laws to make them perform better, or require 
federal agencies to regulate the environmental challenges 
better, or even better, both. We understand these are not 
remotely simple tasks. But neither was modernizing TSCA. And 
this committee did that last year. It was an overwhelming 
success. We hope the committee can leverage the success it had 
on TSCA and turn to other statutes and modernize them as well.
    My written statement contains a long list of proposals to 
improve the way we regulate things like criteria pollutants and 
greenhouse gasses and surface water and drinking water and 
permitting. And we believe that doing that will help those 
emissions guidelines keep going down while preserving 
manufacturers' overall competitiveness.
    In my testimony I also provide a long list of proposals to 
clear the way for new infrastructure, particularly in the 
energy space. As this committee knows, this is a very exciting 
time for energy in the U.S. Our abundance of all sources is 
driving a manufacturing renaissance which is, in turn, creating 
a major need for new and improved energy delivery 
infrastructure.
    A recent report by the NAM found the total natural gas 
demand is poised to increase about 40 percent over the next ten 
years. That is double or I would say that is, that is double 
what, what happened the ten years before that. But, 
realistically, we have had a geographic mismatch. Where the gas 
is being produced now does not necessarily match where the 
pipes are going and where the energy needs to go. And that 
needs to be resolved.
    In addition, energy infrastructure increasingly suffers 
from what we call permitting paralysis. Federal, state and 
local permitting hurdles continue to impede projects across the 
energy landscape. It is a challenge. It is something that 
continues to be a challenge despite some very, very good 
efforts by Congress and the executive branch that we really 
want to see continued attention to.
    So we are happy for the measures in the FAST Act that was 
passed last year. We are excited about the President's recent 
executive memorandum on high priority infrastructure projects. 
I applaud this committee for your leadership on the recent 
passage of the bipartisan Water Infrastructure Improvements for 
the Nation Act, which is a first step to addressing our current 
drinking and wastewater infrastructure crisis. We hope this 
momentum continues.
    Manufacturers are committed to a strong, healthy, 
sustainable environment. But there has to be a balance. 
Environmental laws and regulations should be designed to ensure 
they are effective in achieving their desired outcomes without 
creating unnecessary adverse economic or social impacts.
    Thank you very much.
    [The prepared statement of Mr. Eisenberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Shimkus. Thank you.
    And the Chair would like to ask a unanimous consent request 
that the chairman of the full committee get an opportunity to 
give an opening statement.
    Hearing none, Chairman Greg Walden is recognized for 5 
minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. Thank you, 
colleagues. I was detained in another important matter so I 
couldn't be here at the beginning. But I appreciate the 
testimony of all the witnesses.
    Yesterday the Energy Subcommittee began to explore the 
great potential for American economic growth from modernizing 
our electricity and energy infrastructure, which is really 
important to do. Today this subcommittee, the Environment 
Subcommittee, with its expanded jurisdiction under Chairman 
Shimkus' experienced and able leadership, turns to the economic 
and environmental benefits that will flow from modernizing some 
key environmental laws.
    The common goal here is to identify what steps are 
necessary to responsibly reduce the barriers to a more 
productive U.S. economy, and then to develop targeted 
legislative reforms that will provide for this economic 
expansion and create good-paying jobs. Doing this will 
ultimately benefit American consumers.
    To begin delivering clear results, though, we must craft 
policies that will expand our infrastructure and help 
accelerate innovation, investment, and spur manufacturing 
growth. It also means taking the necessary steps to ensure our 
laws do what they were intended to do as efficiently and cost-
effectively as possible. And it means making sure regulations 
are developed and implemented with transparency and 
predictability.
    There are plenty of opportunities to make common sense 
changes to environmental laws and the way we implement those 
laws that will reduce unnecessary barriers, disincentives and 
delays, permitting new infrastructure and manufacturing. This 
is particularly the case with implementation of some of our air 
laws.
    And there are additional opportunities for environmental 
cleanup that can turn old environmental dead zones into 
healthy, revitalized spaces for our local communities. And all 
of that can help spur some new economic growth.
    Some barriers and burdens to development come from outdated 
assumptions going back decades, as some of you have testified, 
when many of our laws were developed. We have learned much 
since then about what works and what doesn't work.
    Other roadblocks come from regulatory practices that have 
proven impractical or become outdated as environmental quality 
has improved to the point that additional refinements have 
become more costly to obtain. And the digital age has produced 
analytical tools that were not available when the Clean Air Act 
was last amended in 1990. Just look at the computing power 
packed in an iPhone or the developments in nanotechnology and 
bioscience, or all the modern technology that companies use to 
respond successfully to what consumers want in the information 
age.
    Clearly, we have seen tremendous advances all around us, 
and we must embrace as we modernize our laws to increase the 
speed, effectiveness and quality of environmental decision 
making, all of which can produce cleaner air, cleaner water and 
cleaner soils. That is our common goal.
    Our challenge is this: can we go bold and actually harness 
these new tools and technology in partnership with the inherent 
advantages of more localized decision making?
    Can we refocus our resources on cleanup efforts rather than 
courtroom brawls and bureaucratic bungling?
    Are there analytical tools and modeling approaches that can 
make for more practical risk-informed decision making that will 
ease unnecessary burdens and reduce the costly delays in 
business development?
    Can analysis and decision making be decentralized to enable 
innovative approaches to improving public and environmental 
health?
    We have enormous opportunities to make meaningful 
improvements in our environmental laws and regulations. We can 
join the twin engines of modern science and common sense and 
produce better public health and a better economy, too. They 
are not mutually exclusive. They do not have to be that way.
    Today we will begin to identify these opportunities. Again, 
I appreciate the witnesses before us.
    I would just say on a final note, I remember several years 
ago in a community that I represent there was this whole issue 
about what is a wetland and what is not. And we went out on 
this area with cheatgrass and basalt and some dirt. It was 
clearly a pond with some willows and all. That, to me, is a 
wetland.
    And then the local community showed me what the agency had 
said was a wetland which were these two tracks left behind from 
a utility truck that had gone out there when the ground was 
soft. That had now been determined to be a wetland. And they 
could not work around that, they could not disturb that. And 
they literally were the ruts from a utility truck that had been 
out there a year or so before.
    This is the kind of stuff that doesn't make sense at home 
to our communities. This is why we lose support for some of 
these efforts. These are the sorts of things we should be able 
to come together on without a lot of extreme rhetoric and 
figure out, can we find a better way? We want to protect these 
wetlands. We want to protect our drinking water. We had 
problems in Portland public schools where they knew about lead 
in the drinking water there and didn't tell the parents for a 
year or so. It is happening all over our country. None of us 
wants to drink that.
    So let's find a good way through this and we will get 
better, we will harness this technology, we will add in common 
sense, and together in our communities we will get to a better 
place.
    Thank you.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Yesterday, the Energy Subcommittee began to explore the 
great potential for American economic growth from modernizing 
our electricity and energy infrastructure. Today, this 
Environment Subcommittee--with its expanded jurisdiction under 
Chairman Shimkus' experienced and able leadership--turns to the 
economic and environmental benefits that will flow from 
modernizing some key environmental laws.
    The common goal here is to identify what steps are 
necessary to responsibly reduce the barriers to a more 
productive U.S. economy and then to develop targeted 
legislative reforms that will provide for this economic 
expansion and create good paying jobs. Doing this will 
ultimately benefit American consumers.
    To begin delivering clear results, we must craft policies 
that will expand our infrastructure and help accelerate 
innovation and investment and spur manufacturing growth. It 
also means taking the necessary steps to ensure our laws do 
what we intended them to do, as efficiently and cost-
effectively as possible. And it means making sure regulations 
are developed and implemented with transparency and 
predictability.
    There are plenty of opportunities to make commonsense 
changes to environmental laws and the way we implement those 
laws that will reduce unnecessary barriers, disincentives and 
delays to permitting new infrastructure and manufacturing. This 
is particularly the case with implementation of some of our air 
laws.
    And, there are additional opportunities for environmental 
cleanup that will turn old, environmental dead zones into 
healthy, revitalized spaces for our local communities and all 
of that can help spur new economic growth.
    Some barriers and burdens to development come from outdated 
assumptions going back decades-when many of our laws were 
developed. We've learned much since then about what works best 
and what doesn't work at all. Other roadblocks come from 
regulatory practices that have proven impractical or have 
become outdated as environmental quality has improved to the 
point that additional refinements have become more costly to 
obtain.
    The digital age has produced analytical tools that were not 
available when the Clean Air Act was last amended in 1990. Just 
look at the computing power packed into an iPhone, or the 
developments in nanotechnology and bioscience, or all the 
modern technology that companies use to respond successfully to 
what consumers want in the information age. Clearly, we've seen 
tremendous advances all around us that we must embrace as we 
modernize our laws to increase the speed, effectiveness, and 
quality of environmental decision-making. All of which can 
produce cleaner air, water and soils.
    Our challenge is this: Can we go bold and actually harness 
these new tools and technologies in partnership with the 
inherent advantages of more localized decision-making? Can we 
refocus our resources on clean up efforts rather than court-
room brawls and bureaucratic bungling? Are there analytical 
tools and modeling approaches that can make for more practical, 
risk informed decision-making that will ease unnecessary 
burdens and reduce the costly delays in business development? 
Can analysis and decision-making be decentralized to enable 
innovative approaches to improving public and environmental 
health?
    We have enormous opportunities to make meaningful 
improvements in our environmental laws and regulations. We can 
join the twin engines of modern science and common sense and 
produce better public health and a better economy. Today we 
will begin to identify those opportunities. Let me thank the 
witnesses for their thoughtful testimony. You are doing a great 
service in helping to guide our examination of these important 
issues.

    Mr. Shimkus. The gentleman yields back his time.
    So here is the deal, I am going to recognize myself for 5 
minutes to start asking questions. And we will just bounce back 
and forth.
    And I will just start by saying, you know, there are some 
issues that we always deal with: How clean is clean? In fact, 
Mr. Eisenberg, you talked about trace and background. Those are 
words we use in this committee all the time.
    And I appreciate my colleagues and their testimony. There 
is a desire to be efficient, use new technologies, make sure we 
are protecting human health, but also making sure that we can 
create jobs.
    So I want to start with Mayor Mitchell because you have the 
experience. You have been taking Brownfield sites, you have 
been able to put solar panels on there.
    From your experience as a mayor trying to help redevelop 
areas that are blighted or listed as you can't touch, what are 
some of the hurdles and what would you recommend us look at so 
that we can ease some of those hurdles so we can move in the 
redevelopment of these sites quicker?
    Mr. Mitchell. Yes, thank you, Mr. Chairman. No, it is a 
great question.
    And, I guess the way I would start is to say that much of 
the low-hanging fruit, certainly in New Bedford and certainly 
from what I hear from other mayors in the way of Brownfield 
sites have been picked over in recent years. That is to say, 
the easy sites, that is the less contaminated sites, have been 
taken care of and what remains are more complicated sites, 
dirtier sites that in many cases across the country have 
economic value. There is untapped value there that, in the 
absence of contamination, would lead to the redevelopment of 
those sites.
    Mr. Shimkus. They could be right on the shoreline. They 
could be right down Main Street.
    Mr. Mitchell. Yes.
    They can be anywhere. We have, for example, on our 
waterfront, one of the, in one of the busiest ports on the East 
Coast, a 28-acre site that was, that had been for over a 
century the location of a power plant. And back in the late 
'90s the power plant was decommissioned and the utility 
continued to use it. And the utility offered it up to the city 
for a dollar to redevelop, right. It has enormous value but to 
the fact that it is soaked with 100 years' worth of oil and 
PCBs and other really bad things.
    And the city had to turn that opportunity down. And so it 
has sat and continues for some 15 years later to sit there. And 
we're working on a number of plans to try to kickstart interest 
in redevelopment. But there is a hugely valuable site that 
could be put to any kind of purpose: mixed use development, 
industrial development, maritime development. But it can't move 
because the cleanup proposition is, to the market at least, 
insurmountable.
    I think that is a story that has been told in a lot of 
cities across the United States. In the cities that right now 
are dotted with construction cranes, in the private sector 
there is less of a need for government to step in and close a 
funding gap. But in many cities, including, I presume, many of 
the districts that committee members, subcommittee members 
represent, there is a need for government to step in and close 
that gap. It has been doing so successfully in so many places 
across the United States, but that gap still persists for many 
valuable properties across the land.
    Mr. Shimkus. So when we were talking earlier, New Bedford 
is about 100,000 people, and probably most communities in this 
country are less than that. I live in one that is about 25,000. 
Springfield, Illinois has got about 100,000. So, but in these 
communities of that size and smaller you have small business.
    And I turn to Mr. Sullivan to give us the small business 
perspective of some of the hurdles that they have to face in 
this compliance because, you know, we used to quote 50 percent 
of all new jobs is created by small business. And if there are 
hurdles that are making that impossible, then we need to know 
what those could be.
    Mr. Sullivan. Thank you. Thank you, Mr. Chairman.
    I think the answer actually is very simple. And that is 
engage the small business owners toward the constructive 
solutions. It works. And when the agencies, whether they are 
the state or federal agency, when agencies ignore that 
opportunity for constructive input toward solutions then bad 
things happen and unintended consequences happen.
    So, the answer to your question, Mr. Chairman, is you need 
commitment to engage those small businesses before the ink is 
dry on regulatory policies that affect our communities.
    Mr. Shimkus. So my time is expired. And I will just sum up.
    So you are saying get with them and talk to them earlier 
about what is the desire to achieve a blend and see how the 
small business can work to obtain that before the heavy hammer 
of government comes down?
    Mr. Sullivan. Yes. That is correct, Mr. Chairman.
    Mr. Shimkus. My time is expired.
    The Chair now recognizes the ranking member of the 
subcommittee Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    Ms. Mays, again I thank you for being here today and 
sharing your family's story. I know it must be difficult. But 
I, for one, am very grateful that you are giving a voice to 
your community.
    I cannot imagine what it must feel like to turn on your 
faucet and not expect safe water. So if I could ask you a 
series of questions to which you could either say yes or no.
    Do you believe the situation in Flint could have been 
prevented had stronger environmental laws been in place?
    Ms. Mays. Absolutely. And in my personal opinion, and how 
the residents feel, is that had the EPA had a stronger presence 
the state Department of Environmental Quality could not have 
gotten away with exploiting these loopholes.
    And the rule is outdated. There are limited resources with 
the EPA. And there are all of these lawsuits that EPA has been 
hit with and not allow them to come in and say what you are 
doing is wrong. Stop it. They are still, because we are stuck 
in an emergency situation instead of a disaster situation, the 
state, the people who poisoned us, are still in control of our 
recovery, which is why we are not having a recovery.
    So, yes, I do not agree with you, Mr. Barton, because it 
was a failure on all levels. But because we did not have more 
stringent laws, and the fact that we don't have bathing and 
showering standards is ridiculous. Europe does. Other countries 
do. Because that is where we find most of our exposure.
    You get two times the exposure to toxic chemicals in a 10-
minute shower than you do drinking two liters of the same water 
because you are dealing with inhalation and absorption. So the 
fact that we are not even regulating this or testing for these 
contaminants is terrifying.
    Mr. Tonko. Ms. Mays, do you believe if there had been more 
investment to improve and replace unsafe infrastructure these 
problems may have been avoided?
    Ms. Mays. Absolutely. If there was money available, if 
there were better revolving fund grants, if there were issues, 
our city would have been able to start fixing this a lot 
sooner.
    Mr. Tonko. OK.
    Ms. Mays. We have 700 lines replaced out of about 39,000.
    Mr. Tonko. What about the ability to pay? A community like 
Flint and the affordability to pay for necessary infrastructure 
upgrades is what raised concerns, so with additional rate 
increases to water bills, does it not?
    Ms. Mays. It is. We, the state just stopped offering 
credits because Governor Snyder said that our water meets 
federal regulation which, of course, doesn't mean, say, 12 
parts per million can poison a child by far. But, yes, we 
really have no money. We don't, because we are a struggling 
city. And so the money was not available in the water fund to 
do this.
    Plus, we are losing 40 percent of our treated water because 
of main line breaks. So our water costs are through the roof.
    Mr. Tonko. So, therefore, is it necessary for the Federal 
Government to provide funds to communities so that they can 
address systems that are failing?
    Ms. Mays. Absolutely. And Congressman John Conyers 
introduced the WATER Act which, by taxing corporate offshore 
profits, they would be able to fund $37 billion a year for 
infrastructure across the U.S. So they would be helping cities 
like ours that are struggling, as well as reservations, 
hospitals, nursing homes, day cares, the places where the most 
vulnerable are.
    Mr. Tonko. And so it becomes apparent that it is impossible 
for some of these communities to respond to those needs and 
federal investment is required. And there are many communities 
like Flint across the nation.
    When it comes to the negative health effects from unsafe 
water, can you talk about the impacts on work productivity for 
you and you family, children's education and the city's 
economy?
    Ms. Mays. Oh, absolutely. I was on unpaid sick leave for 
quite some time because of the seizures until we could get them 
under control. We missed so much work because we have to go 
outside of the city to find specialists to deal with what my 
sons are going through, what I am going through. We spend so 
much time and money on medication. And I miss a ton of work 
because I have to take my kids to constant doctor and 
specialist appointments.
    And my husband is the same way. He gets up in the morning 
and has dizzy spells and so he can't go to work. And he has got 
two jobs. And so when he misses work it is a huge hit to our 
family.
    Mr. Tonko. Ms. Hammond, thank you for explaining how the 
benefits of these protections significantly outweigh the costs. 
Would you say these benefits are oftentimes understated?
    Ms. Hammond. They are. As I mentioned in my testimony, and 
I have some various citations in my written testimony, the 
benefits of many of the things that come about from 
environmental regulation are very difficult to value, or 
perhaps even priceless. We might be able to put a price tag on 
the cost of a new piece of pollution equipment, but how do we 
put a price on the kinds of stress, the dignitary harm, the 
lives that are impacted when they are, when people are harmed 
by environmental pollution? Those things, we try to price them, 
but we undervalue them.
    Mr. Tonko. And what about strengthening the Safe Drinking 
Water Act or EPA issuing an improved Lead and Copper Rule? What 
benefits do you see? And, again, is it that same theory of 
benefits outweighing costs?
    Ms. Hammond. Yes. Certainly I think that we would see far 
greater benefits than costs by updating the Safe Drinking Water 
Act to make it safer, to give EPA more authority with the 
funding to carry out that authority, and to direct EPA to enact 
these stricter regulations to ensure that our treated water is 
safe, that the infrastructure, the pipelines that carry that 
water, aren't picking up contaminants on the way to people's 
homes.
    Mr. Tonko. Thank you. I have got to yield back.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Texas, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    I am primarily going to ask Mr. Eisenberg some questions. 
But I feel I should talk to you a little bit, Ms. Mays, because 
you are obviously personally experiencing a problem, a huge 
problem with your family.
    What is the population of Flint?
    Ms. Mays. One hundred thousand people.
    Mr. Barton. What is the expected cost? Is the problem the 
crumbling water lines or is the problem reprocessing or 
processing of the water supply? Which is it or is it both?
    Ms. Mays. Because of the loopholes in the Lead and Copper 
Rule the state did not have to require corrosion control, which 
is absurd. When water goes through a metal pipe, so what is 
happening, basically, is that that corrosive acidic water ate 
our infrastructure. It literally ate the metal. So we have 
holes, we have leaks, we have gushes, all the way up into 
people's homes. We have pipes exploding in people's walls as 
well.
    Mr. Barton. OK. Well, that doesn't help answer my question. 
I know you are trying to.
    Ms. Mays. Well, I am having hearing issues because of the 
ear infections from bacteria, so you have to talk a little 
louder.
    Mr. Barton. I can't do that.
    Is it the water itself? Is it the way it is processed? Or 
is it the fact that the pipes that take it to your home have 
deteriorated and there is material in the ground around Flint 
that gets into the water?
    Ms. Mays. It was all of the above. The water was caustic. 
The water source was caustic. It was not treated properly to 
make it less acidic. It ate our infrastructure.
    So we switched back to a cleaner water source. But it 
doesn't matter because the crumbling infrastructure is still 
releasing the toxins and re-poisoning that new water.
    Mr. Barton. Then why can't the city of Flint and the state 
of Michigan put the money in to do that, to clean, to put in 
new lines and to put in a new processing plant? Every other 
city in the country does, every other county, every other 
state.
    Ms. Mays. Well, because our state.
    Mr. Barton. Because if it is a federal issue, if you are 
absolutely correct and I know you have got a real problem. I am 
not disparaging that. But if it is the Federal Government's 
fault, then every city, every county, every state in the 
country would have the same situation. They would have 
thousands and thousands of these. We don't.
    Ms. Mays. Well, that is not true. We actually have about 
5,300 cities in the United States that are cheating and using 
loopholes in the Lead and Copper Rule.
    Mr. Barton. But we don't have 5,300 cities that have the 
problem that Flint apparently has?
    Ms. Mays. Not yet. No, not yet.
    And the reason we don't have our city, first of all, our 
city is near bankrupt. Our state took over our city in 2011 and 
decided to sell off assets under the Public Act 436, which you 
guys know as the Emergency Manager Law. And our Republican 
governor feels that, the same thing as you, that if he had to 
spend the money to fix Flint, even though the state did it, 
that he would have to fix all the cities. So, therefore, he is 
not.
    Mr. Barton. Yes, I am not saying it is not a problem. I am 
not saying the Federal Government shouldn't have a role in it. 
What I am saying is that it is not the total responsibility of 
the Federal Government. If it were, we would have this 
replicated 100,000 times.
    Ms. Mays. And I am not aware that I actually said it was 
totally a Federal Government subject.
    Mr. Barton. And we don't, we don't have that. Your county, 
your city, your state could correct this problem. They don't 
need the Federal Government. May need some assistance in terms 
of infrastructure.
    Ms. Mays. Well, someone needs to regulate what our state is 
doing. They poisoned us and they are in control of our lack of 
recovery. And there is no one to make our governor do the right 
thing. So we have no oversight ourself.
    Mr. Barton. It is called voters. It is called elections. 
You control who your governor is.
    Ms. Mays. It is called he is in there till 2018. He is not 
up for reelection, and so we are stuck.
    Mr. Barton. Mr. Eisenberg, do you believe that 
CO<INF>2</INF> should be a criteria pollutant under the 
definition of the Clean Air Act?
    Mr. Eisenberg. A criteria pollutant that we haven't asked 
for, I, as an association I don't believe we would be for 
something like that. That would be a tough thing to implement. 
But it is regulated under the Clean Air Act and under 111 and 
various other statutes.
    Mr. Barton. Because of the 5-to-4 Supreme Court decision 
and a very faulty endangerment finding by the Obama 
Administration within the first 90 days, you are correct. That 
might be, and I think is an error.
    Would you support, if we were to reopen the Clean Air Act 
to clarify some things, the inclusion of a true cost-benefit 
analysis on major environmental regulations?
    Mr. Eisenberg. We absolutely would. We absolutely would.
    Our goal is that those analyses be done as well as 
possible. And strengthening them for everybody involved on the 
cost side and the benefit side could only help get the best 
information possible to us, the regulating community, and to 
everybody at the agency.
    Mr. Barton. My time has expired, Mr. Chairman.
    Mr. Shimkus. The gentleman now recognizes the ranking 
member of the full committee Mr. Pallone for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    There is a lot that has been discussed about what we 
disagree on. But I want to thank the Chairman for inviting 
Mayor Mitchell to talk about the Brownfields Program because I 
do think we can get bipartisan support.
    I have been a strong proponent of the Brownfields Program 
from the start and have always welcomed bipartisan support. And 
I believe that reauthorizing and increasing the funding for 
Brownfields should be a part of any effort this committee moves 
on infrastructure.
    So, Mayor Mitchell, do you agree with that, yes or no?
    Mr. Mitchell. When you phrase it that way, Congressman, 
absolutely.
    Mr. Pallone. OK.
    Mr. Mitchell. But, yes. And let me just elaborate. I think 
it is an area where there could be broad agreement here. And I 
say that, I come here wearing two hats. I am the Mayor of New 
Bedford but I am also the Chair of the Energy Committee of the 
U.S. Conference of Mayors. And so we talk, we, the mayors of 
America, talk about this.
    There is broad unanimity about across America's cities for 
additional funding for Brownfields. And I think what most 
mayors would tell you is that the Brownfields Program has been 
very helpful in kickstarting the development of certain 
properties. But there are so many grants out there, so many 
grant applications that go unfunded. According to the EPA there 
have been some 1,700 viable projects that have not been issued 
grants in the last 5 years.
    That is pretty significant. I have a list in my city. And I 
am sure every American could come up with a list of projects 
that have economic value but the negating factor is 
contamination. And that although some cities do have, a handful 
of cities in this country do have the resources on hand to help 
close the gap themselves or that the real estate markets are so 
hot that the private sector takes care of it, in the majority 
of American cities that is still not the case. Even in places 
like New Bedford, where we have had a lot of success recently 
in economic development, we still don't have the resources to 
close those gaps.
    Mr. Pallone. And I have more of these sites than any other 
state in New Jersey, and more in my district than any other 
part of New Jersey. So I understand.
    I assume you support more funding for Superfund cleanups as 
well, obviously, as a Superfund city?
    Mr. Mitchell. Well, as a city that has two Superfund sites, 
the one that I mentioned, Sullivan's Ledge, but also New 
Bedford Harbor, which is the nation's first marine Superfund 
site, absolutely they could use more funding.
    Mr. Pallone. Well, when you mention the harbor I wanted to 
mention in my district we have a place called Laurence Harbor 
which is also on the national priority list. So I know first-
hand how difficult and expensive it is to clean up these 
waterfront sites.
    Now, in the case of New Bedford Harbor, a settlement was 
reached with the responsible party in 2013. And the funds from 
that settlement have increased the pace of cleanup 
considerably. That is correct?
    Mr. Mitchell. That is correct.
    Mr. Pallone. So, I only mention that because it illustrates 
what we have seen at numerous Superfund sites: when more 
funding is available, these cleanups can be done more quickly 
and more efficiently, which is so important to the communities 
around the Superfund sites.
    But I want to, I wanted to turn to the issue of 
environmental protections. My Laurence Harbor Superfund site is 
contaminated with lead and other heavy metals that were used to 
build the seawall. That is something that wouldn't happen today 
because of the environmental protections we have in place.
    And the same is true, to my understanding, for New Bedford 
Harbor, environmental protections ensure that PCBs are not 
being dumped into our rivers and harbors.
    My question is if these kinds of environmental protections 
had been in place decades ago, I think a lot of these Superfund 
sites probably would never have been contaminated. So do you 
think it is important to preserve environmental protections so 
that your successor is not cleaning up new Superfund sites 50 
years from now?
    Mr. Mitchell. Yes. I think the contamination that occurred 
in New Bedford, and many other places similarly situated, were 
the poster children for the whole suite of environmental 
legislation in the early '70s. I wish it hadn't happened. But 
we are living with that legacy.
    And I can tell you, again just speaking as a mayor who 
talks to a lot of other mayors, there isn't a mayor in America 
that thinks, that will tell you that we should be loosening up 
on the kinds of regulations that would have protected us from 
those outcomes years ago.
    Mr. Pallone. And just one last question for Ms. Mays. What 
would you say to those who suggest that we need to weaken our 
environmental protections?
    Ms. Mays. That that is going to bring in more Flints. Had 
we had tighter regulations we wouldn't be where we are at now. 
If those loopholes didn't exist, we wouldn't be sick and 
poisoned at this point in time. And we don't want to see any 
other city go through what we are going through right now.
    Mr. Pallone. Well, thank you.
    We are looking at, and hopefully on a bipartisan basis some 
major infrastructure initiatives for both water infrastructure, 
Brownfields, Superfund. So, I think that I really appreciate 
your testimony. And, hopefully, those initiatives will be 
bipartisan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from West Virginia 
Mr. McKinley for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I would ask unanimous consent that we could introduce into 
the record a letter from the Association of General Contractors 
of America and their concern for the infrastructure and 
modernization of our regulatory reform.
    Mr. Shimkus. Hearing no objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. McKinley. Thank you very much.
    Mayor Mitchell, we have in West Virginia over 200 
Brownfield sites. And there are 60 in my district. I have got 
one in a building nearly adjacent to my office in Wheeling. So 
I am quite familiar with some of the problems with it.
    And I would agree from your testimony the concern that it 
is a blight in your community to have one. We have had over the 
last 6 years since I have been in Congress a lot of discussion 
about that, about how we can motivate that from happening.
    But what are you suggesting we do so that we can move this 
along through the process? Because we know like the one you 
were referring to is 15 or 20 years. I know the site that I am 
referring to is 30 or 40 years has been abandoned. And it is 
right on the riverfront. So what do we do about addressing the 
bureaucratic inefficiencies and delays and judicial delays, 
what would you suggest we do on Brownfields?
    Mr. Mitchell. So, putting additional funding aside, I think 
there are a couple of things. So one is increasing the 
flexibility of the use of grants. So, there are many 
communities, and I suspect Wheeling is like New Bedford in this 
way, an older manufacturing city, that have many Brownfield 
sites. And grants are issued to cities that, like mine and 
yours, was the qualification with fewer restrictions. In other 
words, the money wouldn't be site specific but would be city 
specific, and so that we might be able to use them on different 
sites, depending how the market shifts.
    Here is what we want to avoid: we want to avoid a situation 
where we go through the process of applying for a Brownfield 
grant, getting the grant, and then the developer says we are 
not interested anyway. Right? And so that we have to, we, the 
city, have to start over again and reapply for another site 
through EPA's grant cycle to address somewhere else that might 
be developable. So that is one.
    The other thing is, I think the treatment under CERCLA of 
the municipal ownership of sites I think would matter. If 
cities had the ability to take control of sites and to do 
planning and do environmental assessment and put through those 
efforts sites in the market, we would be in a better place. And 
one might way.
    Mr. McKinley. Thank you.
    Mr. Mitchell [continuing]. So wherein lies the 
accountability there?
    Mr. McKinley. I hope we can have further conversation.
    Mr. Mitchell. Sure.
    Mr. McKinley. I would like to go beyond those two I think, 
because I want to get in the timeframe down to Mr. Sunday.
    You had referenced in your prepared testimony about 321(a) 
of the Clean Air Act. And you said that it is in the language 
of the statute, there is language that says continued 
evaluation. The EPA is to conduct ``continued evaluation of 
potential loss of employment that may result from 
administration or enforcement of the Act.''
    And you expressed some concern that that is not being 
upheld. A federal judge in October confirmed that it is not 
being upheld. And you said in your paper that Congress should 
do something. What are you suggesting we do?
    Mr. Sunday. Well, I think, I appreciate the question, sir, 
the language of that opinion was I think a pretty strong 
upbraiding of the agency. I think Congress should step in and 
maybe there is administrative penalties, maybe there is some 
sort of sanctions against the agency if they are not done. At 
the very least there should be some sort of oversight.
    And it is important that the continuing evaluation happens, 
one, because Congress said it should. And I think we should 
have respect for the rule of law, when Congress issues a 
directive to the agency that the agency carries that out.
    And second, we need to consider that there are substantial 
public health impacts on an individual who loses their job. I 
reference that in my testimony that we don't fully account for 
the lifetime loss of earnings with the declining quality of 
life for somebody that loses their job.
    Mr. McKinley. Yes, sir, thank you.
    I found it incredible, though, when I read the testimony 
that the EPA recognized that they were just not going to do it. 
Just not going to do it, even though it was a statute. So I am 
questioning.
    How about any of the others? Mr. Sullivan, would you agree 
that this is a problem when the EPA chooses to enforce some 
portions of law and not others?
    Mr. Sullivan. Congressman, I think it is a huge problem. 
And, in particular, there are instances where EPA is supposed 
to consult with small business prior to finalizing a proposed 
rule. And it does not.
    I will give you one example. In the risk management plan 
that this subcommittee has jurisdiction over in the Clean Air 
Act, the Environmental Protection Agency submitted their rule 
to the Office of Management and Budget before the panel report 
that summarizes small business input was even finished. That is 
an example of the agency going through a check-the-box exercise 
versus what Congress' intent was, a constructive dialog for 
solutions.
    And I think that this subcommittee is well situated to 
bring some oversight to make sure that that doesn't continue.
    Mr. McKinley. Sorry, my time has expired.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentlewoman from Colorado Ms. 
DeGette for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    Back in 1994 when I was in the Colorado legislature I 
passed a bill called the Voluntary Cleanup and Redevelopment 
Act. And this was a Brownfields bill that was targeted at 
cleaning up environmentally contaminated sites in Colorado.
    And I remember when I did the bill, the Chamber of Commerce 
and the Sierra Club both supported this bill because what was 
happening was people who owned these contaminated sites but 
were not, and the mayor knows this well, these were not 
Superfund sites but they were old dry cleaners, they were old 
mining sites, they were leaking tanks. And because of the 
threat of enforcement action by the state, people were just 
sitting on these pieces of property, fearful of cleaning them 
up.
    And so, really until 21st Century Cures came up this was my 
piece of legislation that I passed in my career that I was the 
proudest of because what it did was it took a real problem that 
I described, and then it put together a regulatory framework 
that encouraged businesses to clean up these sites and to make 
them economically viable, but it also protected environmental 
regulation.
    And every so often I talk to my colleagues in the Colorado 
Department of Public Health and Environment, and now, all these 
years later, it has been used thousands of times in my state of 
Colorado to clean up environmental contamination. So I have 
always been a big proponent of federal Brownfields legislation. 
And I also think that we can be doing much more at the federal 
level to try to figure out a way where we can enforce 
environmental regulations while at the same time incentivizing 
cleanups.
    And that is sort of what I want to talk about today because 
it seems to me that in this Congress, and particularly with 
this new presidential administration, we look at environmental 
regulation as a blunt instrument. So we either, what we say, 
and I am looking at this executive order that President Trump 
signed which says that any federal agency issuing a new 
regulation must rescind at least two existing regulations to 
offset the cost of complying with the new regulation.
    Talk about a blunt instrument. Rather than saying what 
regulations do we have that maybe don't exactly work and could 
be repealed or could be modified to work in our economy today, 
and how do these all work together, we just, we just make the 
value judgment that all these regulations are the same. So 
regulations are bad and so we will just repeal two of them for 
every one that we have. Which is, frankly, if you think about 
it, absolutely ridiculous from a public policy perspective.
    I think Ms. Mays could completely agree with that when she 
sees what happened in Flint, Michigan.
    So I just want to ask you, Professor Hammond, about this. I 
don't think there are academic underpinnings of the order but I 
want to ask from an academic perspective, new regulations are 
developed to deal with new problems or new scientific 
understanding. When an agency develops a regulation does that 
mean that existing safeguards are no longer needed?
    Ms. Hammond. Not at all. And I think you have really 
characterized this 2 for 1 order quite well. It trades our 
future for the benefits that we have right now. It really traps 
agencies. They can't justify taking important existing 
regulations off the books, regulations that still operate to 
protect people. And, yet, that means they can't issue new 
regulations that are needed to guard against the many new risks 
that we face today. It really puts them in a bind.
    And I argue it is a bind that is contrary to law.
    Ms. DeGette. And you are not saying that if we have a new 
regulation that we should never repeal old, outdated 
regulations; right?
    Ms. Hammond. Not at all. In fact, agencies are already 
required under many circumstances to do look-backs, to assess 
the regulations they have on the books, see how they are 
working, and see if any of them need to be rescinded. And 
agencies do rescind rules that they find to be outdated, or 
they update those rules.
    So, this is not to say that we shouldn't improve what we 
have, it is simply to say that an unthinking rescission of very 
good regulations hampers progress.
    Ms. DeGette. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Shimkus. The gentlelady's time has expired.
    The Chair now recognizes the gentleman from Texas Mr. Olson 
for 5 minutes.
    Mr. Olson. I thank the Chair. And welcome to our six 
witnesses.
    I hope this is not news to you all, but since I have been 
elected to Congress in 2009 I have been the leader in the House 
to fix our broken ozone rule system. It takes EPA 7 years to 
put out new rules for new ozone standards. And then starts the 
broken process over with new standards seven months later. 
There is no chance, no chance for local communities and 
businesses to comply.
    When the person charged with ozone emissions in the San 
Joaquin Valley, in this very room right around where Ms. 
Hammond and Ms. Mays are sitting, tells us that nearly every 
single gasoline powered car in San Joaquin Valley will be 
banned because of those new ozone standards, there is a big 
problem.
    When Houston, Texas, my hometown, goes from being the ozone 
capital of America in 1972 to within 1 year of full attainment, 
this year 2017, and the rules change, Houston, we have a 
problem. And it is not just Houston's problem, it's the San 
Joaquin Valley's problem. Almost 400 counties across America 
have that same problem.
    EPA is effectively saying you can never, ever comply with 
those standards because they will change. And that is why I 
reintroduced the bill, bipartisan, bicameral bill H.R. 806 to 
address this problem. I am proud to have the co-sponsorship of, 
Chairman, of Mr. Latta, Mr. Flores; Democrats Mr. Cuellar, Mr. 
Bishop, and Mr. Costa; and across The Hill on the Senate side 
we have the West Virginia duo, Mr. Manchin and Mr. Capito.
    Along those lines, my first question is for you, Mr. 
Eisenberg. Page 11 of your testimony you recommend that 
Congress require the Clean Air Scientific Advisory Committee, 
CASAC, to comply with the Clean Air Act, Section 109(d), and 
``advise the Administrator of any adverse public health, 
welfare, social, economic, or energy effects which may result 
from various strategies for attainment and maintenance of air 
quality standards.''
    I thought CASAC had to comply with the law, the Clean Air 
Act. Can you explain why that is so important?
    Mr. Eisenberg. We think it is extremely important. So, they 
complied with pretty much everything you said except for the 
economic part, and never bothered to look at what the economic 
impact of this rule was.
    And as you guys know, we measured it, and it was hundreds 
of billions to trillions of dollars. So that was something we 
would have liked on the front end going in. Obviously it helps, 
on the implementation side it helps in terms of technological 
feasibility.
    Because, like I said, we would do it. We were just never 
asked to do it, so we didn't. And, obviously, that is one of 
the recommendations we would like to see put into place and 
something that becomes mandatory.
    Mr. Olson. I think that is our job to make sure the 
Executive Branch calls, the law will be passed. That is kind of 
what Article I of the Constitution says.
    Next question is for you, Mr. Sunday. There is a study by a 
man named Michael Greenstone, National Bureau of Economic 
Research. It was over the time period 1972 to 1987. He did a 
study about the cost of non-attainment to local counties. He 
said counties lose $37 billion in capital, $75 billion in 
economic production, and 590,000 jobs if there in non-
attainment. That was 30 years ago.
    In your testimony you referenced a paper called ``EPA's New 
Source Review Program: Time For Reform?'' That was on page 14, 
footnote 23. The authors say that changing ambient standards, 
air quality standards carries delays, and in some cases 
canceled projects.
    What is your experience back home about these delays with 
these changing standards over and over, are you losing jobs, 
losing projects?
    Mr. Sunday. Yes. We have had, we have had economic impacts. 
Most recently we have had frustrations, not just with those but 
with the 1-hour SO<INF>2</INF> standard. When you go to shorter 
and shorter time frames it becomes really hard for states to 
say that if we permit a new source we are never going to have 
an exceedence in that 1-hour frame.
    EPA promulgated the 1-hour SO<INF>2</INF> in 2010. Five 
years later they settled with Sierra Club in a sue and settle 
arrangement. They basically said monitoring for your 
designations is off the table. We have got new modeling. 
Modeling is extremely conservative. And, again, as I mentioned, 
it requires plans to account for emissions that they are not 
going to produce.
    Mr. Olson. How much has the Chamber lost in Pennsylvania by 
county? Do you think $30-some billion in capital, like in 1979, 
or '87, I am sorry, $75 billion in economic production? 
Anything like that in Pennsylvania, those type numbers? Because 
that is incredible, 30 years ago, billions.
    Mr. Sunday. I don't have a specific number for you. But as 
I mentioned, we have site selection if we see non-attainment, 
for a lot of companies the location just gets crossed right off 
the list, before you even evaluate workforce, location, 
infrastructure, et cetera.
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Olson. That is when you get back to control ozone 
coming from overseas sources.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Texas, the 
other gentleman from Texas Mr. Green for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I thank you and our 
ranking member for holding the hearing today on infrastructure 
and modernizing our nation's environmental laws. Congress needs 
to use this opportunity to invest in our nation's 
infrastructure and rebuild America. And this is a bipartisan 
area that our subcommittee, I hope, can work together on.
    Mr. Chairman, I would like to ask unanimous consent to 
place into the record a letter to the House of Representatives 
in opposition to H.J.R. 59. It comes from a number of different 
groups, labor groups. And ask unanimous consent to place it 
into the record.
    Mr. Shimkus. Seeing no objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Green. Thank you.
    One, I want to welcome our panel. On any given day coming 
from the district I have in Houston, Texas, I can either be mad 
as can be at EPA or be thankful they are there. And so we have 
that battle.
    But I am glad they are there because I have a very 
industrial area. We have environmental challenges in east 
Harris County. I have now three refineries and a lot of 
chemical plants. At one time I had all five in east Harris 
County. So we have challenges. But we need that product that 
those plants produce. But I also want them to comply with the 
law. And that is what we try to do.
    Mayor Mitchell, I am glad you are here because having an 
older part of Houston, we have had Brownfields we have been 
able to utilize and turn into really something that is 
productive for our community. Although right now we are in the 
middle of a battle in our area on a Superfund site. We had a 
paper mill back in the '60s who they took the docks and the 
mash from cleaning up our paper and disposed of it, but it was 
abandoned. And it was done long before we had an EPA, probably 
in 1964 and '65.
    But we are trying. EPA worked with the community. We got a 
good ruling on the need for the complete cleanup of that. It's 
called the San Jacinto Waste Pits. And I know my colleagues on 
the committee have heard me because whenever we had the EPA 
administrator for the last number of years I explained to her 
my first question will be What are you going to do about the 
San Jacinto Pits?
    It was in Ted Poe's district. Now it is Congressman Babin's 
district. But it was in my district originally, so that is why 
I got to know all the people there. And but EPA took longer 
than I think they should have. But we did get a decision to 
actually remove that docks. And it is going to be very 
expensive. And the good news, we have a responsible party and 
it is not just on the taxpayers to do it.
    Mayor Mitchell, in your program, in the Brownfields 
Program, how has that benefitted your city?
    Mr. Mitchell. Well, in general, Congressman, we have been 
able to generate jobs and save taxpayer dollars by smart use of 
available federal funds, including Brownfields funds. So I 
mentioned in my testimony briefly a Superfund site called 
Sullivan's Ledge that we were able to turn into, from a truly 
nasty pollution site into a premier solar farm that generated 
an awful lot of local jobs, inner-city jobs for guys who put 
together solar panels and build things, as well as to save 
taxpayer dollars because it is on a city-owned site. And the 
electricity that is generated from it, it is about a 1.8 
megawatt site, allows the city to save substantially on its 
electricity bill. So it is really a marquee project that we are 
very proud of.
    That is one example.
    Mr. Green. Well, in the rules that you can do, because some 
of the restorations we have, you are not going to build 
apartments or habitats on that property?
    Mr. Mitchell. No.
    Mr. Green. But you can use it as solar farm.
    We encapsulated, and it is a community college, but it is 
completely covered by concrete, and but it is a community 
college sitting there now that, in a neighborhood, a very inner 
city neighborhood. So it works.
    Have you all, have you worked with project labor agreements 
to do those kind of restorations?
    Mr. Mitchell. They can be used. We did use a project labor 
agreement on another Brownfields site that we turned into, with 
state funding, a state-of-the-art marine terminal that will be 
used specifically for the offshore wind industry, which is 
about to arrive on the East Coast, and New Bedford will be the 
launching pad for it.
    But there was a project labor agreement on that site. And 
it works, it works very well. It was done, done very quickly 
and ready for the offshore wind industry which is really 
setting up shop just now.
    Mr. Green. OK. Well, thank you. I am almost in my time.
    But my colleagues from Texas on the Republican side brag 
about how we produce more wind power. So I am hoping the East 
Coast can catch up with us.
    Mr. Mitchell. That is right.
    Mr. Green. And I yield back my time.
    Mr. Shimkus. There is a lot of hot air in Texas. We know 
that here.
    So the Chair recognizes the gentleman from Michigan Mr. 
Walberg for 5 minutes.
    Mr. Walberg. I thank the Chairman. And thank you for this 
hearing and thanks to the panel for being here, each of you.
    And, Ms. Mays, it is appreciated to see you again. Sitting 
in oversight during the last Congress and having you and others 
in front of us numerous times to deal with the Flint issue is 
very important. So I don't plan to ask any questions. I think I 
used plenty of time in those hearings.
    But I do want to say something, and hadn't planned to say 
this. But I want to make it very clear, the comments of one of 
my colleagues, that this wasn't just a local/state situation. 
And I want to say thank you to my colleagues that are still 
here, colleagues here in Congress who joined with in helping 
the Michigan delegation as we worked together to try to bring 
some resources back to deal with this issue.
    It was an important issue to deal with. Certainly there 
were egregious failures at the local level for years, allowing 
a great city like Flint, probably could be defined as an auto 
capital, economic engine in Michigan, to go downhill to the 
point that we see today with infrastructure and all of the 
rest. So, significant blame is there at the local level, 
significant blame is at state DEQ in letting things slip.
    Fortunately, a professor like Mark Edwards from Virginia 
Tech came in, brought in, assisted, bringing to light the 
problem that went on with our environmental concerns there. But 
ultimately he said, and this is what I want to make a point of, 
that the number one most difficult party and party at fault was 
the EPA. And that is the reason why the administrator, the 
Region 5, resigned and left office.
    But it bothered me that never did we ever get an apology or 
an admission of guilt from the EPA administrator or otherwise 
in this issue. And that resulted, along with all of the 
process, resulted in significant human impact, as evidenced by 
Ms. Mays today as well.
    And so it is important for me to say this was failure at 
all levels. And we do well in looking at how we make sure in 
the future that we use our resources wisely and our powers 
appropriately to make sure that we carry out what we are 
supposed to be doing.
    Having said that, let me move on here.
    Mr. Eisenberg, thank you for being here. In the past, EPA 
has assured the public that states will have multiple years to 
comply with stringent air standards such as ozone standards. 
But what impact do those standards, like the recently issued 
ozone standards, have on permitting? And more specifically, is 
this a ``few years in the future problem'' or a ``now problem'' 
for domestic manufacturing?
    Mr. Eisenberg. It was a 2015 problem for domestic 
manufacturing. So the minute, literally the minute that the new 
standards had the goalposts removed and the new ozone standards 
come into place, for permitting that is, that is what you have 
to hit. And so even though you have a couple years, and it 
really isn't that many years, but a couple years to start 
working on state implementation plans, for permitting purposes 
day one, the day EPA goes final, you've got to hit those 
limits.
    And they are tough limits to hit. I mean they, in a lot of 
places half the states.
    Mr. Walberg. Even if they haven't put the full parameters 
in place?
    Mr. Eisenberg. Yes. Even if they haven't finished their 
implementation guidance. And so you just have to figure out way 
to get there.
    Mr. Walberg. Guessing at it?
    Mr. Eisenberg. Yes. Computer models and things like that.
    And it is frustrating. I mean, I personally went to EPA a 
couple of years ago with a member of mine who was struggling 
with that exact same issue in PM2.5, particulate matter. They 
were building a green roof facility in the middle of Missouri, 
where there is literally nothing. I mean it is just open space. 
They were going to make green roof components. I mean, 
generally pretty good for everybody. It's a win across the 
board.
    They couldn't figure out how to model a payment for PM2.5. 
They just couldn't figure it out. And the state couldn't figure 
it out. EPA couldn't figure it out. Nobody could figure it out.
    Eventually that story had a happy ending. But it hung up 
the permit for a bunch of months. The company was thinking 
about pulling out, moving to a different site.
    That is the kind of thing we need to avoid. And that is the 
kind of thing that you can do by just updating the Clean Air 
Act, updating some of these provisions, making them perform a 
little bit better.
    Mr. Walberg. And putting the parameters in place clearly.
    Mr. Eisenberg. Without a doubt.
    Mr. Walberg. Yes. Yes.
    Mr. Sunday, in the context of permitting under the Clean 
Air Act you raised concerns that EPA's modeling is based on 
unrealistic assumptions. Explain a little bit more.
    Mr. Sunday. Right. When we say it is unrealistic or 
conservative what we mean is that if you compare these same 
expectations in the model versus actually monitoring data you 
will come to two different conclusions. And that is monitoring 
shows what the real world impacts are. And the modeling is 
really conservative, it assumes that a facility is cranking out 
emissions as high as possible, as often as possible around the 
clock. And then it has to account or order its operations in a 
way to account for those emissions, even though those emissions 
aren't actually going to be created.
    And so when you rely on modeling, your, your outcomes are 
only as good as your expectations. And the current structure 
under modeling is the impressions or expectations that you are 
putting into it, those inputs, aren't reflective of real world 
practice.
    Mr. Walberg. Thank you. My time has expired.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from California Mr 
McNerney for 5 minutes.
    Mr. McNerney. Well, I thank the Chairman.
    The U.S. has clearly made environmental progress since the 
Clean Air and Clean Water Act. And it is clear that this 
progress has produced significant innovation and economic 
growth. So the question we now face is, are the regulations 
promulgated under the Clean Air Act and Clean Water Act still 
producing innovation and economic growth? Or is it time to 
revise the laws to reflect the kind of flexibility that Mr. 
Eisenberg advocates?
    But the problem with revising the laws, from my point of 
view, is that we hear extreme views from the Republican party 
of eliminating the EPA. And so there is no way we can open up 
that box. There is no way we can do that because a fear that 
the progress we made will be lost in a deregulatory frenzy.
    So the Republicans have forced us into an absolute 
determination to block and obstruct all and any efforts to 
revise these laws. That is simply where we are.
    Now, Ms. Hammond, I loved your quote, and I may not get it 
exactly right, that the environmental regulations help correct 
market failures. Would you expand on that a little bit, please?
    Ms. Hammond. Yes. Classic economic theory provides that we 
have these things called externalities. So, essentially, when, 
let us say, a manufacturing facility bears many costs 
internally, it fields those costs, but when it pollutes the air 
it is imposing the costs of the pollution on the public at 
large. That is a negative externality because it makes its 
costs external.
    Environmental laws force those costs back into the entities 
who created them. And so it is a simple market failure and it 
is a very rational way of working to correct that failure.
    Mr. McNerney. Well, a few years ago the Center for 
Progressive Reform published a short article examining the 
question of whether regulations were resulting in job loss. The 
article concluded that there was no evidence to support the 
assertion of substantial job losses versus environmental trade-
off. Could you elaborate on that one a little bit?
    Ms. Hammond. Yes. And I am familiar with that article. The 
fact is, economists have been looking for decades for support 
for this urban myth, this false dichotomy that environmental 
regulation hurts our economy. The history, the facts show 
otherwise.
    And so I think it is important to remember many of the 
figures that we have heard today that focus on regulatory costs 
don't account at all for regulatory benefits. So perhaps there 
are some costs imposed; again, that is a false way of looking 
at it because we are actually asking people to bear the costs 
of what they create, of their behavior.
    But let's say, OK, they are bearing a cost they didn't bear 
before. But we have to remember what the benefits of doing that 
are. The benefits are the health benefits, the days that people 
can go to work, the days that kids can stay in school. And so, 
even this discussion today has focused very much on costs, but 
hasn't at all attempted to net the benefits into that figure. 
If you net the benefits in, we will find net benefits, not net 
costs.
    Mr. McNerney. Thank you.
    Ms. Mays, you said that the state used a weak rule to save 
pennies a day and poisoned 100,000 people. What are the weak 
rules? And how were those used to poison?
    Ms. Mays. Well, one of the loopholes in the Lead and Copper 
Rule they exploited was that they could take up to a year to 
evaluate whether corrosion control was necessary once they 
switched the water source.
    The next was the testing. There is no strict testing to say 
you have to identify a service line. I mean it is in there, it 
is in the wording, but there is no follow-up. So they were 
testing people, like my home, and saying that, oh, she has got 
a lead service line. Her lead at this point in time is 8 parts 
per billion. It's safe. Which, of course, it is not. But I have 
a copper service line.
    So there was that. There was the capping stagnation on how 
long the water can sit in the pipes.
    The small bottles, they had small-mouth bottles to 
encourage people to use a lower flow. All these little 
loopholes that are being exploited in those 5,300 cities I 
talked about before. And if these are not tightened up and 
closed up, these 5,300 cities are going to be looking at a 
problem like Flint. Hopefully not as devastating. But, again, 
you can't put a price on a child's learning capabilities. You 
can't put a price on my liver or my lungs.
    So these need to be closed up so this never happens again.
    Mr. McNerney. Is there a specific proposal to close those 
loopholes?
    Ms. Mays. We have been working on trying to reform the Lead 
and Copper Rule on a federal and state level. And we run into 
so much opposition because all we hear is how much it is going 
to cost. They do not talk about the health benefits, the life 
benefits. All we hear is, nope, this is going to cost too much 
money. Nope, this person is going to have to pay. And so 
nothing happens.
    Mr. McNerney. Well, if you have specific proposals, work 
with us and we will try to work with you.
    Ms. Mays. Thank you.
    Mr. McNerney. Thank you.
    I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Georgia Mr. 
Carter, a new member of the committee, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. And thank all of you 
for being here today. We appreciate your participation in this.
    Mr. Chairman, I have a statement from the American Forest 
and Paper Association and the American Wood Council that I 
would like to submit for the record.
    Mr. Shimkus. I hear. Give me a minute.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Carter. Thank you.
    Mr. Eisenberg, I want to start with you if I could. In your 
testimony you mention the carbon neutrality of forest-based 
biomass. And that really piqued my interest because, as you 
know, in the state of Georgia we have quite a bit of forests 
and forest products industry, and specifically in the 1st 
District of Georgia that I have the honor and privilege of 
representing. So it is very important to me.
    And that statement really did pique my interest. I was very 
interested in that.
    Many of the European countries consider forest-based 
biomass to be carbon neutral. However, the EPA seems to have 
taken a different opinion of that and a different approach, and 
they are treating it much like fossil fuel source. Do you agree 
with the EPA's assessment of forest-based biomass?
    Mr. Eisenberg. I do not. And until 2010 the EPA did 
consider forest biomass carbon neutral. In 2010 they kind of 
created this problem. And now we don't necessarily have an 
answer.
     So, no, the forest products industry is reusing a resource 
to make energy that otherwise wouldn't be used for, really, 
anything valuable. So it is our position that forest biomass 
produces, it is a part of the sustainable carbon cycle. It 
harnesses this energy that would otherwise be lost. And it 
should absolutely be considered carbon neutral, particularly if 
you are seeing forest stocks rising at the same time.
    Mr. Carter. What happened? Why did the EPA change? At one 
time they were considering it carbon neutral. And then you said 
in 2010 it kind of shifted?
    Mr. Eisenberg. That is exactly what happened. I wish I had 
a good answer for you. But they changed their position after, I 
think, significant external pressure. And it is, obviously, 
something we would like to see changed back.
    Mr. Carter. Well, it is really a problem because a lot of 
the forest product facilities in the state of Georgia and 
specifically, again, in my district they use self-generated 
energy as opposed to going to the power grid that uses natural 
gas and coal. They use this. And it is somewhat of a byproduct.
    And that seems to me to be what we would encourage and what 
we would want them to do. But, again, when they are using a 
renewable, carbon neutral biomass that is a byproduct of their 
manufacturing process, wouldn't you agree that EPA should 
recognize that as being carbon neutral?
    Mr. Eisenberg. Without a doubt. I mean the Chairman said 
something about, How clean is clean? How renewable is 
renewable? This is renewable energy; let's treat it as such. 
You can't distinguish between different kinds. They are all 
good for our policy. They are part of, frankly, an all-of-the-
above policy. And we should absolutely be finding ways to get 
these manufacturers to use something that would otherwise be 
waste.
    Mr. Carter. And that is very vital. In the state of Georgia 
we have over 200 manufacturing facilities, in Georgia alone, 
many of them in my district. And, again, for them to be able to 
use this as a reliable power source, that is essential and it 
is very important.
    Now, Mr. Eisenberg, if I could, I want to switch gears for 
just a moment. A constituent with a manufacturing facility in 
my district has expressed to me their concern and their very 
real concern that energy costs are, and energy bills, the high 
costs of energy, are really one of the obstacles that they are 
having to overcome. We have struggled with this in the state of 
Georgia.
    I served for 10 years in the Georgia state legislature. 
Some years ago we had a sales tax on energy that was just 
devastating to manufacturing. We took that off. I want to give 
credit where credit is due. We acknowledged that and took it 
off. Yes, we should have had it off long before then. But it 
did. And it helped immediately. It was an immediate relief to 
our, to our manufacturers.
    But again, how can we look at energy costs? Would you agree 
that that is a real obstacle for businesses and manufacturers 
in particular?
    Mr. Eisenberg. Without a doubt. For many manufacturers it 
is their biggest cost. In some of these very energy-intensive 
sectors. Chemicals, iron, steel, aluminum, things like that, it 
is their most significant cost. And so it is a driver for 
whether or not they are going to expand facilities, build 
facilities.
    The big reason you see sort of a manufacturing boom in the 
Gulf region is, quite frankly, because of the energy down 
there. And so, so it is absolutely a cost. It is a driver, one 
of the many drivers, and for a lot of these companies the 
biggest driver.
    One of the recommendations we make in our proposals here is 
that when EPA is putting out new regulations on manufacturing 
it needs to take into account energy. I mean there are certain 
provisions of the Clean Air Act that require that. They get 
danced around.
    And as EPA, and realistically it has become in many ways a 
regulator of energy in some of these areas, OK, let's take a 
look at how that is impacting manufacturers' energy use. This 
is something they should absolutely deal with that.
    Mr. Carter. And as we talk more about----
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Carter [continuing]. Keeping manufacturing in America, 
energy costs should be considered.
    Mr. Eisenberg. Absolutely.
    Mr. Carter. Thank you, Mr. Chairman. Appreciate your 
indulgence.
    Mr. Shimkus. The Chair now recognizes the gentlelady from 
Michigan, Congresswoman Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman. And thank you for 
hosting this hearing. It is a really important topic. And thank 
you to all the witnesses. I want you to know I read all of your 
testimonies last night, and I will not have time to ask all the 
questions that I want to.
    I want to build on my colleague from Michigan's comments. I 
want to thank Melissa Mays for being here today. And really the 
comments that my colleague made, and I wish that Mr. Barton was 
still here, and I want to talk to him about it, I met Ms. Mays 
before any of you had ever heard the word Flint. And when I met 
her and some other people from Flint and understood what was 
happening, I very quickly developed a position that I still 
have today and, I think, really gets at what this part of this 
hearing is about, which is at the time, we need to figure out 
how we keep the people of Flint safe and what did we need to do 
immediately?
    How did we fix the problem long term?
    And how do we make sure that it never happens again in 
another community in this country?
    Like my colleague from Michigan, I do believe the 
government was responsible at every level. I think the federal, 
state and local level all failed the people of Flint, period.
    But Mr. Barton was asking questions about what happened in 
Flint and was it the delivery, was the lines, was it? The 
reality is there was a canary in the coal mine and General 
Motors stopped using the water in the plant long before anybody 
realized what was happening. And nobody shared the fact that 
GM's engines were being corroded. And they were given the 
opportunity that no Flint resident or any other Flint business 
was offered, which was to go to an alternate water system.
    So, and as we have been talking, and I don't want to ask 
the same question, though I was going to, does EPA need to 
strengthen the Lead and Copper Rule to ensure what happened 
doesn't happen in any other? Everybody agrees. The question is, 
how do we have that discussion? How do we balance that cost-
benefit ratio?
    So, I think that is really an important question. And I 
think today reinforces the water in Flint still is not safe. 
And I want to ask Ms. Mays some questions about that. But how 
do we make sure that what is the proper role at the federal 
level for these other 5,300 communities?
    Let me ask you this question, Ms. Mays: How are the 
residents of Flint taking all of this? And do they have any 
remaining faith the government will help remedy the situation?
    Ms. Mays. Every day that ticks by we lose our hope. We lose 
a bit of self worth because, like Mr. Barton was talking about, 
it is an argument over who is responsible instead of let's get 
on it and fix it. Let's save these people's lives. And let's 
put in the laws that are going to make sure it doesn't happen 
again.
    And as time goes on, again, today is 1,028 that we have had 
to go through this. And to see that there has been very little 
change is terrifying. Because now I am hearing from cities all 
over the place. I am actually going to East Chicago to talk to 
them about their crisis and try to help rebuild their morale as 
well.
    We have had an increased number of suicide attempts. We 
have people that have given up. People are walking away from 
their homes that they worked so hard to pay for. And they are 
just giving up. And they just can't deal with this anymore 
because it has gone on for so long and with such little being 
done. And people saying, well, we don't want to help; it is not 
our responsibility. While we're sitting here suffering in our 
showers, watching people that we love die and suffer and fall 
apart in front of us because, though it has been 21 years since 
there has been any kind of update to the laws that should have 
protected us. It is heartbreaking.
    Mrs. Dingell. Let me ask you one more question quickly.
    We just had an incident down river, which is where I am 
front, where the water smelled and it was colored. It is 
colored and there was a number of issues. Having gone through 
Flint, I was not shy or retiring and immediately got on the 
phone with the governor. But one of the things that concerned 
us is that the water authority did not call us back. They were 
doing testing and not making it transparent. And I could go on 
and on and on.
    But my question is, do you think we need to strengthen the 
Safe Drinking Water Act to provide more information to 
consumers about what is in their water for all contaminants? 
And how quickly do we tell people we are testing? How do you 
give that information to the consumers, et cetera?
    Ms. Mays. Absolutely. It needs to be immediate. As soon as 
there is an issue people need to know. If they would have told 
us that they failed their first Safe Drinking Water Act test in 
May of 2014, we could have gotten filters, we could have 
stopped drinking the water, and we wouldn't be where we are at. 
So transparency is crucial.
    We need to know what is in our water because we are paying 
for it and we are relying on it. But, also, we need to know 
what changes are being made and why they are being made? What 
is being tested for? Because we are intelligent people. Just 
give us the facts and we will be able to protect our own 
families.
    Mrs. Dingell. Out of time. But I do want to tell Mr. Barton 
that there were two problems in Flint. Because nobody told 
people what was going on, the infrastructure corroded. Got to 
keep that from happening in this country.
    Mr. Shimkus. My guess is you will, you will talk to him.
    Mrs. Dingell. I think you are right.
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Texas Mr. Flores for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. I want to thank the 
panel for joining us today.
    Mr. Eisenberg, you recommended in your testimony that 
Congress consider modifying the national ambient air quality 
standards review cycle to more closely align with the actual 
pace of implementation of existing standards. So the question 
on that: Can you explain what this would look like and why it 
is important?
    Mr. Eisenberg. Sure.
    Mr. Flores. And, Mr. Sunday, I will have a follow-up for 
you in a second.
    Mr. Eisenberg. So we have spent a lot of time over the 
years talking with air directors and the folks in the state 
that are actually doing the work to try to implement these 
things. And I think if you ask most of them whether or not 5 
years is the right amount, I think they would say no. They are 
generally understaffed and have a lot of different regs that 
they are dealing with all at the same time. And in terms of the 
pace of when EPA gets them guidance and their ability to comply 
with it, we constantly wind up in this sort of, this Groundhog 
Day scenario.
    Mr. Flores. Right.
    Mr. Eisenberg [continuing]. Where every 5 years we are 
barely implementing the last one.
    And so, I think if you asked them, would you like more 
time? I think they would probably say yes.
    It would probably look at lot like what is the bill you 
support, the bill that you and Congressman Olson put forward 
which, if it is signed into law, would basically ensure that 
all the ozone standards stay, you know, everybody basically 
meets, other than a few counties, by 2025.
    Mr. Flores. Right.
    Mr. Eisenberg [continuing]. With less economic penalties. 
You get to the same place. Those numbers keep trending down, 
like I have been saying all morning, except there are less 
economic penalties. It is kind of a win for everybody.
    Mr. Flores. Yes. Based on when we looked at this last year, 
I mean the actual pace of implementation from the EPA was 
actually 10 years versus the 5 years that the law provides for. 
About 80 percent of the language in Mr. Olson's bill came from 
my bill last cycle. And H.R. 4000 did also, it resets that to 
fit sort of the real world. That way we could actually get to a 
place where we are having success versus our communities always 
being behind and suffering an economic penalty from that.
    Also, Mr. Eisenberg, you testified that ``the shale gas 
boom could create 1.4 million new manufacturing jobs in the 
United States and generate annual cost savings for 
manufacturing of $34.1 billion due to lower energy and feed 
stock costs.'' So, why is it important that we maintain or that 
we establish, rather, a more balanced and predictable 
permitting and review process for complex infrastructure 
projects like pipelines?
    Mr. Eisenberg. Because manufacturing is coming back and we 
need the pipes to get the natural gas where it goes. We are 
relying on all fuels as manufacturing, but especially natural 
gas.
    Mr. Flores. Right.
    Mr. Eisenberg. We use it as feed stock.
    Mr. Flores. So, so it helps manufacturing. Can you give us 
some granularity about what types of manufacturing jobs would 
be particularly benefited by this?
    Mr. Eisenberg. Absolutely. Certainly on the back end it is 
the sort of energy-intensive, the chemicals, the 
petrochemicals. Everything that is a building block for 
everything that we, that we make and use here: trash bags and 
carpet, and everything that natural gas goes into.
    On the front end there is the entire supply chain. There's 
the compressors, and valves, and paints and coatings, and 
cement, and all of these components that go into a large 
infrastructure project like that.
    We have a number that we use, about 32 to 37 percent of a 
pipeline is manufacturing inputs. So those are all 
manufacturing jobs. That is straight across the supply chain. 
It is across the country. It is just a great story. And that is 
a big reason why we support some infrastructure.
    Mr. Flores. OK, thank you.
    Mr. Sullivan, as an advocate for small business. Are there 
parts of executive orders that could address the balance 
between cost and benefits in a regulation that you think are 
worth considering putting in the statute?
    Mr. Sullivan. Thank you, Congressman. Yes, there are 
provisions that should be enhanced in the executive orders and 
perhaps looked to by this committee legislating.
    Any time an agency is required to look at costs they then 
need to speak with small businesses to come up with solutions. 
And many times that doesn't happen. So the idea of taking those 
cost-benefit executive orders and writing them into law, so for 
instance, when you are looking at updating the Clean Air Act, 
have tremendous benefits for small business input.
    And we think that that would lead, for Main Street small 
businesses, to actually come up with more constructive 
solutions to many of the things that we were talking about this 
morning.
    Mr. Flores. What I would like you to do, if you could, 
following this hearing is send us some specific 
recommendations, if you don't mind. That way we can begin the 
statutory process of advancing the ball on these executive 
orders into statute that help provide the right balance between 
regulations and cost and benefit and economic growth.
    Thank you. I yield back.
    Mr. Sullivan. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now wants to welcome Congressman Ruiz to the 
committee and recognize him for 5 minutes.
    Mr. Ruiz. Thank you. I appreciate that, Mr. Chairman.
    The Clean Air and Clean Water Act protect our basic 
necessities: clean, breathable air, and safe, drinkable water, 
fundamental elements we all need to survive. And we need to 
prioritize protecting our health.
    I am an emergency medicine physician. I take care of 
asthma. And the worst moments I think are kids who have come in 
with an asthma exacerbation and gone into cardiac arrest and 
have passed away. And those moments of me having to tell their 
parents that their child just died still haunt me to this day.
    Asthma is exacerbated by air pollution. It is one of the 
most common preexisting diseases among children in the U.S., 
and a leading cause of hospitalizations and school absences. 
There are over 34 million asthmatics in the U.S., including 7 
million children. Annually, nationwide there are over 10.5 
million physician visits due to asthma, 2 million emergency 
room visits due to asthma, and $11 billion spent on asthmatic 
treatments.
    While asthma can be debilitating, or even life threatening, 
it can be a controllable disease. Asthma intensifies by 
environmental conditions such as outdoor air pollution. So why 
would we want to make it harder for asthmatic children in 
vulnerable populations to breathe clean air?
    We also know many of the water systems that serve low 
income communities have drinking water contamination levels 
above federal guidelines, which can lead to a number of 
developmental and behavioral health issues. In my district we 
have rural communities that rely on well water because there is 
no water infrastructure, and there is high levels of 
contaminated arsenic.
    Funding improvements to water systems would improve the 
lives of these families and children. Many of these families 
live in underserved areas and rely on healthcare, Medicaid, to 
get access to take care of their asthma and all of the other 
developmental problems that they have.
    Ms. Mays, tell me, are you in Medicaid?
    Ms. Mays. Yes. We are covered by the Flint water Medicaid 
expansion.
    Mr. Ruiz. So that was part of the expansion?
    Ms. Mays. Yes.
    Mr. Ruiz. OK, lead can have acute toxicity. It can cause 
irritability, behavioral changes, headache, abdominal pain, 
nausea, vomiting, all these things. That is just if somebody 
takes a big swig of lead toxicity.
    That is not what is happening in Flint. That is more of a 
higher dose but doesn't cause acute symptoms. It is more 
chronic in nature. Those are the silent killers, the silent 
things where people may have developmental delays; they have 
hearing problems; nervous systems; injuries to kidney, speech, 
language; even growth, muscle, bone development; and eventually 
seizures, which can be life threatening.
    So if you didn't have Medicaid, what would happen to your 
children?
    Ms. Mays. We would not be able to take them to the 
rheumatologist, to the osteo specialists they have to see 
because of their growth plates and growth problems. They would 
not be able to get the blood work done to consistently see what 
is going on.
    I deal with seizures at this point. So I wouldn't be able 
to see my neurologist, my gastroenterologist, my 
rheumatologist, our infectious diseases doctor, our 
toxicologist and environmental physician. We wouldn't be able 
to see any of them because we couldn't afford it. We just do 
not have that money. So if we did not have the health coverage, 
we wouldn't be able to try to manage the side effects of these 
permanent damages.
    Mr. Ruiz. And are your neighbors in the same place, the 
other parents of children that have these calamities?
    Mr. Ruiz. Absolutely. Flint is 41 percent at or below the 
poverty line. So we are a struggling city as it is. And access 
to quality medical care if you do not have Medicaid is slim to 
none. So we have so many people that never got tested so they 
don't even know how high their blood lead levels were during 
that first crucial 28 days.
    So, we have people that are dying from seizures. There was 
a 29-year-old school security guard who had a seizure and died 
at the school.
    Mr. Ruiz. Wow.
    Ms. Mays. And we have no idea what it was caused by because 
he didn't have insurance.
    So we are absolutely terrified right now.
    Mr. Ruiz. Any kids that you know of with renal failure on 
hemodialysis or anything?
    Ms. Mays. We have a lot. We have several different dialysis 
clinics that are full. There is a waiting list.
    Mr. Ruiz. Oh dear.
    Ms. Mays. My oldest son now has high blood pressure because 
he has kidney damage. All three of my sons have low vitamin D 
levels because their kidneys are not producing enough because 
they have been hit by this.
    Mr. Ruiz. That is one of the primary reasons why I ran for 
office to begin with. I didn't grow up in the political world, 
guys. I didn't run for city council and then work my way up. I 
came straight from the emergency department because I take care 
of these patients that I care so much about. And it breaks my 
heart to know how sometimes politicians up here are so removed 
from the human face of failed policies. And they are not 
smiling. They are on hemodialysis. They are worried.
    And if we don't start prioritizing correctly our funding to 
help patients and help real people with real problems and kind 
of make that our focus instead of prioritizing, putting at the 
top of our list removing these protections in order to benefit, 
you know, some of the companies, then I think we are just going 
to have a worse human tragedy.
    And with that, I am sorry you are going through this.
    Ms. Mays. Thank you.
    Mr. Ruiz. I will be praying for you and your family. Thank 
you so much.
    Ms. Mays. Thank you.
    Mr. Shimkus. The gentleman yields back his time.
    A couple pieces of business. I ask unanimous consent that a 
letter from the American Road and Transportation Builders 
Association be submitted for the record.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And a February 2015 Resources for the Future 
white paper entitled ``EPA's New Source Review Program: 
Evidence on Processing Time 2002 to 2014.''
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. Also ask unanimous consent to submit for the 
record a letter from the Center for Progressive Reform, dated 
February 10, 2017; a Washington Post article reporting that 
American households have a $15,000 regulatory burden, dated 
January 14, 2015; and a report from the Congressional Research 
Service, ``Methods of Estimating the Total Cost of Federal 
Regulations,'' dated January 21, 2016.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. That should be all the business.
    We do appreciate your testimony. These are tough issues. 
When we were successful in the last Congress, I think we have 
just got to get on the same page of what are real numbers, 
whether it is job loss or the science. I think we have to have 
transparency and trust that the numbers we bring forward are 
legitimate.
    I think we have to have a recognition of the time frame of 
implementation and the burdens of changing that.
    This was a committee hearing that was really broad. And I 
think my colleagues and I after this will start focusing down 
on stuff like Brownfields and some other things that we might 
be able to move in a more collaborative, comradely manner. And 
maybe we will look at some of the other tough, tough issues, 
too.
    But we do appreciate your testimony. And I call this 
hearing to a close.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
   

                        <all>
</pre></body></html>
